<html>
<title> - [H.A.S.C. No. 111-150]THE UNITED STATES NUCLEAR WEAPONS POLICY AND FORCE STRUCTURE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 111-150]

 
      THE UNITED STATES NUCLEAR WEAPONS POLICY AND FORCE STRUCTURE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 14, 2010


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
58-230                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4a3b4ab84a7b1b7b0aca1a8b4eaa7aba9ea">[email&#160;protected]</a>  

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              CATHY McMORRIS RODGERS, Washington
PATRICK J. MURPHY, Pennsylvania      K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                DOUG LAMBORN, Colorado
CAROL SHEA-PORTER, New Hampshire     ROB WITTMAN, Virginia
JOE COURTNEY, Connecticut            MARY FALLIN, Oklahoma
DAVID LOEBSACK, Iowa                 DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             JOHN C. FLEMING, Louisiana
GABRIELLE GIFFORDS, Arizona          MIKE COFFMAN, Colorado
NIKI TSONGAS, Massachusetts          THOMAS J. ROONEY, Florida
GLENN NYE, Virginia                  TODD RUSSELL PLATTS, Pennsylvania
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma

                     Paul Arcangeli, Staff Director
                Bob DeGrasse, Professional Staff Member
                Andrew Hunter, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                Julie Unmacht, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant
                    Caterina Dutto, Staff Assistant
                     Megan Howard, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, April 14, 2010, The United States Nuclear Weapons 
  Policy and Force Structure.....................................     1

Appendix:

Wednesday, April 14, 2010........................................    51
                              ----------                              

                       WEDNESDAY, APRIL 14, 2010
      THE UNITED STATES NUCLEAR WEAPONS POLICY AND FORCE STRUCTURE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Chilton, Gen. Kevin P., USAF, Commander, U.S. Strategic Command..     7
D'Agostino, Hon. Thomas P., Under Secretary for Nuclear Security, 
  Administrator, National Nuclear Security Administration, U.S. 
  Department of Energy...........................................     9
Miller, Hon. James N., Ph.D., Principal Deputy Under Secretary of 
  Defense for Policy, U.S. Department of Defense.................     5
Tauscher, Hon. Ellen O., Under Secretary of State for Arms 
  Control and International Security, U.S. Department of State...    11

                                APPENDIX

Prepared Statements:

    Chilton, Gen. Kevin P........................................    64
    D'Agostino, Hon. Thomas P....................................    69
    McKeon, Hon. Howard P. ``Buck''..............................    55
    Miller, Hon. James N.........................................    58
    Tauscher, Hon. Ellen O.......................................    75

Documents Submitted for the Record:

    Tri-Lab Directors' Statement on the Nuclear Posture Review...    85

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................    91
    Mr. Lamborn..................................................    89
    Mr. Owens....................................................    94

      THE UNITED STATES NUCLEAR WEAPONS POLICY AND FORCE STRUCTURE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, April 14, 2010.
    The committee met, pursuant to call, at 10:35 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. The Armed Services Committee 
meets today to receive testimony on the United States' nuclear 
policy as well as the force structure in light of the recent 
Nuclear Posture Review (NPR) as well as the signing of the New 
Strategic Arms Reduction (START) Treaty.
    Joining us today is a very formidable witness panel, and in 
the order of speaking, the Honorable Jim Miller, Principal 
Deputy Under Secretary of Defense for Policy; General Kevin 
Chilton, the Commander of the United States Strategic Command, 
or what we call STRATCOM; the Honorable Tom D'Agostino, excuse 
me, the Under Secretary of Energy for Nuclear Security and 
Administrator of the National Nuclear Security Administration 
(NNSA).
    And no stranger here, and we welcome her back, the 
Honorable, fantastic Ellen Tauscher, Under Secretary of State 
for Arms Control and International Security. It is a real 
thrill to have you back. And we appreciate each one of you 
appearing here today.
    The National Defense Authorization Act for Fiscal Year 2008 
required the Secretary of Defense to perform a review of our 
nuclear posture in coordination, of course, with the State 
Department and the Energy Department.
    The Administration's Nuclear Posture Review seeks to 
establish a bipartisan approach to nuclear policy and, in my 
view, properly balances the role of our nuclear deterrent 
forces with the goals of preventing nuclear terrorism and 
weapons proliferation.
    It contains exactly the balance that former Secretaries of 
Defense Bill Perry and Jim Schlesinger recommended to our 
committee a year ago when they presented the findings of the 
bipartisan Congressional Commission on the Strategic Posture of 
the United States. ``This is a moment of opportunity,'' the 
commission concluded, ``to reach consensus on U.S. nuclear 
strategy, but it is also a moment of urgency.''
    The urgency, according to these experts, arises 
``internationally, from the danger that we may be close to a 
tipping point in nuclear proliferation and, domestically, from 
an accumulation of delayed decisions about the nuclear weapons 
program.''
    The Administration's Nuclear Posture Review offers us the 
opportunity to act on the urgent issues, both internationally 
and domestically, that the commission defined.
    Following the path first outlined by President Obama in his 
speech in Prague last year, the NPR calls for responsibly 
reducing the role of nuclear weapons in our national security 
strategy. This action opens the door to stronger steps against 
rogue states and those who would fail to protect nuclear 
technology and materials.
    The NPR's new approach recognizes that we live in a 
complicated world that demands immediate action to protect us 
from the threat of nuclear terrorism, such as locking down 
loose nuclear materials in concert with other nations. And in 
that regard, I want to congratulate the President on obtaining 
the agreement of 47 nations here in Washington at the nuclear 
summit to lock down these materials within four years. That is 
good.
    At the same time, the NPR is grounded in the strength of 
our nuclear deterrent forces. It calls for retaining a nuclear 
triad of intercontinental ballistic missiles (ICBMs), 
submarine-launched ballistic missiles (SLBMs) and heavy 
bombers.
    I am also pleased that the review concluded that, as long 
as nuclear weapons are around, they will be maintained safely. 
They will be maintained securely as well as reliably, and 
consistent with the Stockpile Management statute recommended by 
this committee last year and codified in law by the Defense 
bill.
    In addition to the NPR, the Nation's nuclear posture and 
force structure has recently been influenced by the 
announcement and signing of a New Strategic Arms Reduction, or 
START, Treaty with the Russians.
    This new treaty comes at a critical time, as we approach 
the May Review Conference of the Non-Proliferation Treaty (NPT) 
by agreeing to reduce their nuclear stockpiles, and the U.S. 
and Russia have sent a clear message to the rest of the world.
    This action by the two largest nuclear powers will only 
strengthen the President' efforts at the conference to impose 
stiffer punishments on nations such as Iran that are accused of 
violating the NPT.
    The road before us to a world free of nuclear threats is 
long and it will be, at times, difficult, but the signing of 
the historic New START Treaty moves us miles ahead toward 
reaching that final destination.
    In his memoirs, Ronald Reagan noted, ``For the 8 years I 
was president, I never let my dream of a nuclear-free world 
fade from my mind.''
    Like President Reagan, President Obama is aiming high with 
his commitment to a world without nuclear weapons. But as I 
read it, the President's nuclear posture and the New START 
Treaty are deeply rooted in a common-sense strategy that will 
enhance our national security by protecting us from the most 
urgent nuclear dangers.
    So before calling on our distinguished panel of witnesses, 
let me recognize my friend, the ranking member, the 
distinguished gentleman from California, Mr. McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. I would also like to 
extend a warm welcome back to our witnesses.
    Before I begin, I want to express my deep condolences to 
the Polish people. Saturday's tragedy leaves us at a loss for 
words. Many of us here had met with President Kaczynski in 
previous trips to Warsaw as well as the distinguished civilian 
and military leaders who also perished in this unfortunate 
accident. Our thoughts and prayers are with their families, 
loved ones, at this time.
    Today's hearing focuses on the Administration's changes to 
U.S. nuclear policy and posture. We have seen much fanfare 
accompany the release of the new Nuclear Posture Review, the 
President's trip to Prague to sign a New START Treaty, and the 
Nuclear Security Summit held earlier this week.
    I commend the President's focus on these important nuclear 
security issues. However, my objective today is to understand 
how the policy has changed and why, as well as the consequences 
and implications.
    Along these lines, I would like to highlight my primary 
concerns. First, the NPR appears to change our nation's 
longstanding policy of ``calculated ambiguity.'' It adopts a 
``Negative Security Assurance'' (NSA) policy, whereby non-
nuclear weapons states that aren't proliferating are assured 
that the U.S. would never threaten the use of nuclear weapons 
against them, even if the U.S. or our allies are threatened 
with biological or chemical weapons.
    At the same time, the NPR includes a caveat that 
adjustments could be made if conditions change. Furthermore, 
the NPR signals a desire to pursue a universal ``sole purpose'' 
policy by which the threat of nuclear use to deter a 
devastating chemical or biological attack would be taken 
entirely off the table.
    Why embrace such muddled wording that sends mixed signals 
to both our allies and adversaries? I hope our witnesses will 
discuss why this policy change was made and the national 
security benefits they believe it provides.
    I worry that these changes to U.S. declaratory policy, 
combined with the explicit signaling of what is yet to come, 
will weaken our deterrence rather than strengthen it.
    Second, the NPR indicates the President has already 
``directed a review of potential future reductions in U.S. 
nuclear weapons below New START levels.'' What would be the 
strategic rationale for such reductions?
    Without further assessments of the threat and understanding 
of our military commanders' requirements, much less seeing how 
the implementation of START goes, it would seem premature to 
rush into deeper cuts.
    We have been told repeatedly that START would permit 
further development and deployment of U.S. missile defenses in 
Europe and the U.S. But Russian leaders suggest such 
deployments could lead to their withdrawal from the treaty.
    How are these differing expectations being resolved, 
especially when some are suggesting that missile defense and 
conventional forces be included in the next round of 
negotiations? I am concerned that our eagerness to do more arms 
control may further cost us important conventional 
capabilities. I hope our witnesses can assure us that this is 
not the case.
    Third, any decision to reduce our nuclear stockpile, 
including those weapons we maintain in storage, should not be 
made unless we have high confidence that the remaining arsenal 
is highly reliable. This requires a sustained, long-term 
investment to modernize our aging stockpile and infrastructure, 
not just a one-year increase of funds.
    Furthermore, how do we attract and retain top scientists 
and engineers to an enterprise that is shrinking and, as the 
NPR states, explicitly prohibits the development of new nuclear 
warheads? General Chilton, as you told the committee last year, 
our nuclear weapons are ``chemistry experiments on the shelf.''
    What young, bright engineer wants to work on that? How does 
the Administration propose to maintain required technical 
competencies in an environment that does not allow them to be 
exercised from start to finish?
    Lastly, the NPR rightly places emphasis on addressing the 
threat of nuclear terrorism and nuclear nonproliferation. The 
President has announced an intentional effort to secure all 
vulnerable nuclear material around the world within four years, 
yet we have not seen any plans for how this would be 
accomplished.
    But there is another aspect to nonproliferation--U.S. 
assurance to our over 30 allies and friends who have agreed not 
to acquire nuclear weapons in exchange for U.S. nuclear 
guarantees. Will our policy changes, reductions, and signaling 
lead to less confidence in our nuclear deterrent and, perhaps, 
drive some of our allies and friends to consider developing 
their own?
    Fundamentally, the President appears to believe that U.S. 
nuclear reductions will restore our moral leadership to 
encourage others to do the same. However, it assumes regimes 
like Iran and North Korea will curb their nuclear ambitions, 
Pakistan and India will reduce their nuclear arms, and Russia 
and China will be more inclined to support tough sanctions 
against Iran, all as a result of U.S. stockpile reductions. 
However, none of these have yet to be seen.
    I would like to thank our witnesses again for being with us 
today and for their dedication and service. And Mr. Chairman, I 
would like to have my full statement included in the record, 
please.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 55.]
    The Chairman. Without objection the entire statement will 
be so ordered. Thank you, Mr. McKeon.
    The order of testimony will be, as we face the witnesses 
from left to right, Secretary Miller, General Chilton, 
Secretary D'Agostino and finally then we are saving the best 
for last, Secretary Tauscher. We thank each of you for 
appearing before us today, and we have your written statements 
and each will be incorporated for the record without objection.
    So, Secretary Miller, the floor is yours.

  STATEMENT OF HON. JAMES N. MILLER, PH.D., PRINCIPAL DEPUTY 
   UNDER SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF 
                            DEFENSE

    Dr. Miller. Thank you. Mr. Chairman, Mr. McKeon, 
distinguished members of the committee, thank you for the 
opportunity to testify today. It is a pleasure to join my 
esteemed colleagues in discussing U.S. nuclear policy and 
capabilities.
    I will focus my remarks today on the recently completed 
and, as you know, congressionally mandated Nuclear Posture 
Review, or NPR. The 2010 NPR provides a roadmap for 
implementing the President's Prague agenda for reducing the 
role and numbers of nuclear weapons, with the ultimate goal of 
a world free of nuclear weapons.
    Because this goal will not be reached quickly, perhaps not 
in our lifetimes, the NPR outlines specific steps needed to 
sustain a safe, secure, and effective nuclear deterrent for as 
long as nuclear weapons exist.
    In the fiscal year 2011 budget requests from both the 
Departments of Defense and Energy are the first installments in 
this long-term effort.
    As the chairman noted, the 2010 NPR identifies the most 
urgent nuclear dangers today as arising from proliferation and 
the potential for nuclear terrorism, and it outlines a 
comprehensive approach for dealing with these challenges that 
includes policy initiatives and increased investments in a 
number of areas.
    More broadly, the NPR identifies five key areas and five 
objectives for U.S. nuclear policy and posture. First, and as I 
noted, the top priority is preventing nuclear proliferation and 
nuclear terrorism.
    Second, reducing the role of U.S. nuclear weapons in our 
national security strategy, and I will say more about that in 
particular.
    Third, maintaining strategic deterrents and stability at 
reduced force levels.
    Fourth, strengthening regional deterrents and reassuring 
U.S. allies and partners and fifth, sustaining the safe, secure 
and effective nuclear arsenal.
    Given that the committee has received the NPR report, I 
won't summarize all of its conclusions; focus my remarks 
instead on declaratory policy and force structure issues. The 
2010 NPR aims to make clear the benefits to other nations of 
complying with the Nuclear Non-Proliferation Treaty and the 
potential consequences of not doing so.
    It strengthens the existing U.S. nuclear--sorry, excuse 
me--it strengthens the existing U.S. Negative Security 
Assurance associated with the NPT and states, ``The United 
States will not use or threaten to use nuclear weapons against 
non-nuclear weapon states that are party to the NPT and in 
compliance with their nuclear nonproliferation obligations.''
    At the same time, the NPR does reflect continued concerns 
about chemical and biological weapons, or CBW, and it affirms 
that
``. . . any state eligible for this assurance that uses 
chemical or biological weapons against the United States or its 
allies or partners would face the prospect of a devastating 
conventional military response--and that individuals 
responsible for that attack, whether national leaders or 
military commanders, will be held fully accountable.''
    Given the catastrophic potential of biological weapons in 
particular, and the rapid pace of biotechnology development, 
the NPR notes that the United States reserves the right to make 
any future adjustment in the assurance that may be warranted by 
the evolution and proliferation of biological weapons threat 
and U.S. capacities to counter that threat.
    This clarified Negative Security Assurance does not apply 
to nuclear weapon states such as Russia or China, nor does it 
apply to states not in compliance with their nuclear 
nonproliferation obligations, such as Iran and North Korea.
    For these states, the NPR makes clear that U.S. nuclear 
weapons still play a role in deterring not only nuclear attack, 
but also conventional or CBW attack against the United States 
or partners and allies. And as Secretary Gates noted recently, 
for Iran and North Korea, all options are on the table.
    Finally, to address the potential nexus of terrorists and 
weapons of mass destruction (WMD), the NPR renews the ``. . . 
U.S. commitment to hold fully accountable any state terrorist 
group or other non-state actor that supports or enables 
terrorist efforts to obtain or use weapons of mass destruction, 
whether by facilitating, financing, or providing expertise or 
safe haven for such efforts.''
    This statement and the clarification of the U.S. Negative 
Security Assurance associated with the NPT are both reflections 
of the fact that the most urgent threats today are nuclear 
proliferation and nuclear terrorism.
    At the same time, as long as nuclear weapons exist, the 
U.S. must retain the safe, secure, and effective nuclear 
arsenal to deter an attack on the United States and our allies. 
Therefore, one of the first tasks of the NPR, was continued 
throughout the review, was to find positions for the New START 
negotiations.
    The Department of Defense (DOD)-led NPR team reached the 
following conclusions about U.S. strategic nuclear force 
structure. First, the U.S. should retain a nuclear triad of 
intercontinental ballistic missiles (ICBMs), submarine-launched 
ballistic missiles (SLBMs) and dual-capable heavy bombers under 
New START, and the fiscal 2011 budget request includes funding 
for each leg of the triad.
    Second, all U.S. ICBMs should be ``de-Multiple 
Independently Targeted Reentry Vehicle (MIRV)ed'' to a single 
warhead each in order to reinforce strategic stability. And 
third, an ability to upload non-deployed nuclear weapons on 
delivery vehicles should be retained as a hedge against 
technical or geopolitical surprise.
    The Administration intends to provide additional details 
for strategic forces under New START in a report required by 
Section 1251 of the National Defense Authorization Act for 
2010. This report will include a 10-year estimate of budgetary 
requirements for sustaining delivery platforms, the nuclear 
weapons stockpile and the nuclear weapons complex.
    My statement deals with questions of non-strategic nuclear 
weapons as well as long-range strike capabilities, and I would 
like to ask that that full statement be submitted for the 
record. And then, in order to make more time for questions of 
the committee, I would like to just conclude by saying the 
following.
    And that is that a key premise of the 2010 Nuclear Posture 
Review was that an effective national strategy for reducing 
nuclear dangers and sustaining the U.S. nuclear deterrent will 
require support from a long succession of U.S. administrations 
and Congresses.
    Laying the groundwork for sustainable bipartisan consensus 
has been and remains a central purpose of this NPR. Thank you.
    [The prepared statement of Dr. Miller can be found in the 
Appendix on page 58.]
    The Chairman. I thank the gentleman.
    General Chilton, please.

   STATEMENT OF GEN. KEVIN P. CHILTON, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Chilton. Thank you, Chairman Skelton and Ranking 
Member McKeon and members of the committee. I appreciate the 
opportunity to be before you today and to testify on these two 
very important topics.
    The United States Strategic Command was closely consulted 
throughout the development of the Nuclear Posture Review and 
during negotiations on the New Strategic Arms Reduction Treaty, 
and I look forward to discussing them with you.
    I would like to note at the outset how proud I am of the 
extraordinary work the Command performed in support of all 
these efforts. We have an amazing team in Omaha and their 
diligence, expertise, and tireless work continue to ensure our 
ability to deliver global security for America.
    The NPR reflects a current assessment of the global 
security environment, one which is markedly, but not entirely, 
different from the one we faced in the Cold War. It recognizes 
the need to confront global threats, including nuclear dangers, 
through the twin prongs of deterrence and nonproliferation. The 
NPR includes several key recommendations that will serve to 
both sustain and strengthen USSTRATCOM's ability to conduct our 
deterrence missions.
    Specifically, the NPR recommends moving forward with a 
number of nuclear enterprise sustainment projects, including 
strengthening our nuclear command and control structure; 
continuing development and deployment of our triad of delivery 
systems; maintaining a safe, secure and effective stockpile; 
and revitalizing the National Nuclear Security Administration's 
aging infrastructure.
    America's triad of diverse and complementary delivery 
systems provides unique synergies that make our deterrent 
highly credible and resilient in the face of a variety of 
potential technological and geopolitical developments.
    The NPR further endorses DOD efforts to explore future 
triad systems, specifically, to extend the Minuteman III ICBM 
through 2030 and conduct studies now to inform decisions on a 
follow-on land-based deterrent to replace the Ohio-class SSBN 
at the existing ships' end of life, and to study future long-
range bomber capabilities. It also supports moving forward with 
full-rate production for the W76-1 warhead for our submarine 
leg of the triad. Full-scope--that is, nuclear and non-
nuclear--life extension of the B61 bomb to sustain its 
strategic deterrence and extended deterrence roles, and 
initiating studies to develop life extension options for the 
W78 ICBM warhead, including the possibility of also adapting 
the resulting warhead for sea launched ballistic missiles and, 
thereby, reducing the number of warhead types.
    Additionally the NPR and the President's budget recognize 
the need to improve the nation's nuclear infrastructure and 
address the challenges of human capital recruitment, 
development, and sustainment. These investments are required in 
order to confidently reduce the overall U.S. stockpile while 
sustaining the credibility of our nuclear weapons, which is 
fundamental to effective deterrence.
    Investments that revitalize NNSA's aging infrastructure and 
intellectual capital strengthen our security with the 
facilities and people needed to address technological 
surprises, geopolitical change, and a range of cutting edge 
national security challenges. The Administration's request for 
a 13 percent increase in NNSA's funding for fiscal year 2011 is 
an important first step in this process.
    In regard to New START, the nuclear enterprise remains, 
today and for the foreseeable future, the foundation of U.S. 
deterrent strategy and defense posture. As the combatant 
command responsible for executing strategic deterrence 
operations, planning for nuclear operations, and advocating for 
nuclear capabilities, we are keenly aware of how force posture 
and readiness changes can affect deterrence, assurance, and 
overall strategic stability.
    The New START agreement, in my view, retains the military 
flexibility necessary to ensure each of these for the period of 
the treaty.
    In support of the New START negotiations effort, U.S. 
Strategic Command analyzed the required nuclear weapons and 
delivery vehicle force structure and posture to meet current 
guidance and provided options for consideration by the 
Department.
    This rigorous approach, rooted in both deterrent strategy 
and assessment of potential adversary capabilities, supports 
both the agreed-upon reductions in New START and 
recommendations in the NPR.
    Every day, U.S. Strategic Command remains focused on 
providing the President and future presidents with the options 
and flexibility needed to deter and respond to threats to our 
nation and its allies. Today, our deterrent is safe, secure, 
and effective.
    Our forces are trained and ready, and the command is 
faithfully and fully carrying out its missions each and every 
day. I am confident that the NPR and New START outline an 
approach that continues to enable the men and women of U.S. 
Strategic Command to deliver global security for America today 
and in the future.
    Again, thank you for the opportunity to testify before this 
committee, and I look forward to your questions and future 
discussions.
    [The prepared statement of General Chilton can be found in 
the Appendix on page 64.]
    The Chairman. General, thank you so much.
    Secretary D'Agostino, welcome.

  STATEMENT OF HON. THOMAS P. D'AGOSTINO, UNDER SECRETARY FOR 
  NUCLEAR SECURITY, ADMINISTRATOR, NATIONAL NUCLEAR SECURITY 
           ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Secretary D'Agostino. Thank you, Mr. Chairman and members 
of the committee. I am very pleased to appear before you today 
with General Chilton, the Honorable Ellen Tauscher and Dr. Jim 
Miller to talk about the Nuclear Posture Review. I will focus 
my remarks on the Department of Energy's equities in the 
Nuclear Posture Review.
    As you know, or as you may not know, that NNSA has been 
actively engaged in the formulation of the NPR and we are 
pleased, along with General Chilton, to have had the 
opportunity to contribute significantly to the document.
    The NNSA is actively engaged in direct support of the first 
NPR objective: preventing nuclear proliferation and nuclear 
terrorism. The most important steps we can take to keep 
terrorists from developing and using an improvised nuclear 
device or a radiological ``dirty bomb,'' is to prevent them 
from acquiring the nuclear materials or radiological materials 
themselves.
    This is not a new job to the NNSA. We have led this effort 
for several years, and now we are accelerating and broadening 
the scope of these efforts.
    Current NNSA programs include securing nuclear materials, 
including the most vulnerable nuclear materials, worldwide in 
four years; disposing of excess U.S. and international fissile 
materials; strengthening the international safeguard systems by 
developing new safeguards technologies, expertise, policies, 
concepts, and partnerships; developing an active nuclear and 
radiological security dialogue and cooperation with key 
domestic and international partners; and developing highly 
sensitive and wide-area nuclear detection technologies.
    NNSA programs are supporting the President's arms control 
and nonproliferation agenda by using these technical 
capabilities within the Nuclear Security Enterprise to 
demonstrate the technical ability to support the Comprehensive 
Nuclear Test Ban Treaty (CTBT), the Fissile Material Cutoff 
Treaty and any follow-on arms control requirements.
    The Department of Energy and NNSA are also actively engaged 
in direct support of the fifth NPR objective, ``sustaining a 
safe, secure, and effective nuclear arsenal.'' For more than 65 
years, our program has been able to do just that: assure the 
nation that the nuclear weapons stockpile is safe, secure, and 
effective in meeting the nuclear deterrent needs of the United 
States.
    The need to maintain the nuclear stockpile without nuclear 
testing has been a national policy for close to 20 years, and 
we will continue to do that into the future, consistent with 
the key principles included in the NPR.
    To that end, the United States will not conduct underground 
nuclear testing and will not develop new nuclear warheads. 
However, we will study all options for ensuring the safety, 
security, and effectiveness of our nuclear warheads, and we 
will do so on a case-by-case basis.
    Applying these principles, the NNSA will fully fund the 
ongoing Life Extension Program for the W76 submarine-based 
warhead for completion in the year 2017 and the full-scope life 
extension study for the B61 bomb to ensure first production 
begins in 2017. And, as General Chilton also mentioned, 
participate with the Nuclear Weapons Council on a study of life 
extension options and approaches for the W78 ICBM warhead.
    The NPR also concluded that the NNSA needed to recapitalize 
the aging infrastructure and to renew our human capital, the 
critical cadre of scientific, technical, and engineering 
experts who carry out our stockpile management work and support 
other missions.
    To that end, the NNSA will strengthen the Science, 
Technology and Engineering base needed for conducting weapon 
system life extensions, weapons surety, certification without 
nuclear testing, and providing annual stockpile weapons 
surveillance.
    NNSA will also fund two key facility projects, the 
Chemistry and Metallurgy Research Replacement (CMRR) project at 
Los Alamos National Laboratory to replace the existing 50-year-
old CMR facility by 2021 and a Uranium Processing Facility at 
the Y-12 plant in Oak Ridge, Tennessee to come on line for 
production operations by the year 2021.
    Responsible stockpile management requires not only the 
supporting infrastructure, but also a highly capable workforce 
with the specialized skills needed to sustain the nuclear 
deterrent and to support the President's nuclear security 
agenda.
    The NPR noted the importance of recruiting and retaining 
the human capital needed in NNSA for nuclear security mission. 
In order to succeed in our mission, we need to be able to 
recruit and retain the next generation of nuclear security 
professionals, because our highly specialized workforce is, 
indeed, our greatest asset.
    The President has now clearly outlined the importance of 
nuclear issues for our national security and the importance of 
keeping the U.S. nuclear deterrent safe, secure, and effective 
for the future.
    And the Administration's commitment to a clear and long-
term plan for managing the stockpile and comprehensive nuclear 
security agenda ensures that the scientists and engineers of 
tomorrow will have the opportunity to engage in challenging 
research and development activities.
    I would also want to share with the committee a statement 
from our national laboratory directors that provides their 
views on the Nuclear Posture Review. The directors universally 
state that ``We believe the approach outlined in the NPR, which 
excludes further nuclear testing and includes the consideration 
of the full range of life extension options, provides the 
necessary technical flexibility to manage the nuclear stockpile 
into the future with an acceptable level of risk.''
    ``We are reassured that a key component of the NPR is the 
recognition of the importance of supporting a modern physical 
infrastructure--comprised of nuclear security laboratories and 
a complex of supporting facilities--and a highly capable 
workforce.''
    Mr. Chairman, I would like to provide that statement for 
the record so the unanimity of support for the NPR is fully 
understood and is clear.
    This Nuclear Posture Review is an important step toward 
adopting a 21st century approach to nuclear weapons and a 
broader array of nuclear security issues. This path forward 
will require a long term commitment from administrations and 
from future Congresses to provide the support and resources 
necessary to sustain our deterrent.
    As a committee directed in 2010 language, we have 
formulated, and will soon submit to the Congress, a Stockpile 
Management Plan that will describe how the NNSA and the 
Department of Defense will work together to implement the 
policy strategy and force structure included in the NPR.
    With the committee's endorsement, the Nuclear Security 
Enterprise will have the science, technology and engineering 
expertise to carry out the full range of nuclear security 
missions, not just managing the stockpile but using those 
capabilities to address that full spectrum of national security 
efforts required.
    Secretary Chu recently stated that ``the Department of 
Energy must discover and deliver the solutions to advance our 
national priorities.'' The NNSA and the Nuclear Security 
Enterprise are poised to provide those solutions.
    Thank you, Mr Chairman. I am pleased to respond to your 
questions.
    [The prepared statement of Secretary D'Agostino can be 
found in the Appendix on page 69.]
    The Chairman. Thank you, Secretary D'Agostino. Without 
objection, the laboratory report to which you referred will be 
made part of our record.
    [The information referred to can be found in the Appendix 
on page 85.]
    Secretary D'Agostino. Thank you, sir.
    The Chairman. Secretary Tauscher, we welcome you back, and 
we look forward to your testimony.

 STATEMENT OF HON. ELLEN O. TAUSCHER, UNDER SECRETARY OF STATE 
FOR ARMS CONTROL AND INTERNATIONAL SECURITY, U.S. DEPARTMENT OF 
                             STATE

    Secretary Tauscher. Thank you, Mr. Chairman. Chairman 
Skelton, Ranking Member McKeon, distinguished members of the 
House Armed Services Committee, thank you for the opportunity 
to discuss the State Department's role in protecting the United 
States and our allies from today's most pressing threats.
    I am honored to appear today with my friends and 
colleagues, Tom D'Agostino from the Department of Energy, Dr. 
Jim Miller from the Department of Defense, and General Chilton.
    Before I begin, let me thank you all for your service, and 
I want you to know how much I miss serving on this committee. 
It is an honor, however, to be part of the Obama Administration 
and to work with President Obama and Secretary Clinton to 
implement our arms control and nonproliferation agenda.
    As you know, we have an ambitious agenda to reduce the role 
and numbers of nuclear weapons to make the United States more 
secure and the world more stable. The President set forth 
several goals in his speech in Prague last year; three of which 
have been advanced in just the last few days.
    First, he wanted a new treaty that would make verifiable 
and mutual cuts in the United States' and Russia's nuclear 
arsenals. Second, he vowed to reduce the role of nuclear 
weapons in our security posture. And third, he set a goal of 
securing all vulnerable nuclear material within the next four 
years.
    At the same time, the President reaffirmed our commitment 
to maintaining a safe, secure, and effective deterrent to 
protect the United States and our allies so long as nuclear 
weapons exist.
    Mr. Chairman, the State Department, working with our 
friends at the Department of Energy and Defense, and with the 
rest of the inter-agency team and the Congress, are fully 
engaged in implementing the President's agenda.
    Last week, the Administration released a report of its 
year-long Nuclear Posture Review. This review constitutes a 
clear break from past reviews, both in terms of process and 
scope. The Department of Defense led the review but, for the 
first time, the inter-agency, including the Department of 
State, fully participated in discussing the issues and making 
recommendations to the President.
    For the first time, the Nuclear Posture Review is an 
unclassified document. The Obama Administration took a broad 
whole-of-government approach to addressing the United States' 
nuclear policy and identifying concrete steps to enhance our 
national security.
    Finally, last Thursday, President Obama traveled to Prague 
to sign the New START Treaty. I spent much of March at the 
table in Geneva and helped conclude the agreement.
    The New START Treaty will improve United States and 
international security by reducing and limiting U.S. and 
Russian strategic nuclear forces, promoting strategic stability 
by ensuring transparency and predictability regarding U.S. and 
Russian nuclear strategic forces over the life of the treaty, 
and advancing our nuclear nonproliferation efforts.
    The treaty sets meaningful lower limits on deployed 
strategic warheads and their delivery vehicles and launchers--
limits that the Department of Defense validated through 
rigorous analysis in the early months of the Nuclear Posture 
Review. The treaty's verification regime will provide each side 
with confidence that the other is upholding its obligations.
    The treaty gives our military the flexibility to structure, 
deploy, and maintain our forces in ways that best meet our 
national security interest. And, perhaps most importantly, the 
treaty does not contain any constraints on testing, 
development, or deployment of current or planned United States 
missile defense programs, or current or planned United States 
long-range conventional strike capabilities.
    Let me make one final point. Under the new treaty, the 
United States will continue to maintain a safe, secure, and 
effective strategic nuclear force to protect ourselves, our 
allies, and our partners.
    The United States and Russia can safely reduce our nuclear 
forces because the threat environment has changed. Today's most 
pressing nuclear threats come from terrorists and additional 
countries seeking nuclear weapons, not the risk of a large-
scale nuclear attack, as during the Cold War.
    The conclusions of our recent Nuclear Posture Review 
reflect that reality. The NPR directs us to preserve the 
effectiveness of our nuclear deterrent for as long as it is 
required, reduce the potential for conflict, enhance strategic 
stability worldwide, and strengthen the nonproliferation 
regime.
    The NPR outlines a new approach that will ensure that our 
defenses and diplomacy are geared toward those objectives. Our 
updated Negative Security Assurance reinforces the President's 
objectives of reducing the roles and numbers of nuclear weapons 
by making it clear that the United States will not use or 
threaten to use nuclear weapons against non-nuclear weapon 
states that are party to the Nuclear Non-Proliferation Treaty 
and are in compliance with their nuclear nonproliferation 
obligations.
    That is why we call it the NSA, because it is a very long 
bite of an explanation of who they are. The purpose of this 
change is to emphasize to non-nuclear states the security 
benefits of adhering to and fully complying with the Nuclear 
Non-Proliferation Treaty and their nuclear nonproliferation 
objectives.
    Some have suggested this might lead such states to be less 
fearful of consequences of using chemical or biological 
weapons. Nothing could be further from the truth. Let me be 
clear. No one should doubt the resolve and conventional 
military capabilities of the United States to respond to such 
aggression with devastating effect and to hold accountable 
those responsible.
    The Nuclear Non-Proliferation Treaty Review Conference in 
May is a critical opportunity to renew and revitalize all three 
pillars of the treaty: nonproliferation, disarmament, and 
peaceful uses of nuclear energy under safeguards.
    The Nuclear Non-Proliferation Treaty is the cornerstone of 
the nuclear nonproliferation regime and an essential foundation 
for progress in nuclear arms control and disarmament. All 
nations must recognize that the nonproliferation regime cannot 
survive if violators are allowed to act with impunity.
    Along with our international partners, the United States is 
pursuing diplomatic efforts to convince Iran and North Korea to 
resolve the world community's concerns about their nuclear 
programs, and to encourage them to cooperate in addressing all 
outstanding questions about those programs.
    We are working to build international consensus for steps 
that will convince Iran's leaders to change course, including 
new United Nations Security Council sanctions that will further 
clarify their choice of upholding the NPT and safeguard 
obligations, or facing increasing isolation and painful 
consequences.
    With respect to North Korea, we continue to send a message 
that simply returning to the negotiating table is not enough. 
Pyongyang must move toward complete and verifiable 
denuclearization through irreversible steps if it wants a 
normalized, sanctions-free relationship with the United States.
    These steps send a clear message about this 
Administration's priorities and resolve. Our commitment to 
defend our national security interests and our allies and 
partners in Europe, the Pacific and elsewhere has never been 
stronger. In this regard, the NPR emphasizes close cooperation 
with our allies around the world and maintains our firm 
commitment to mutual security.
    We will work with our partners to reinforce regional 
security architectures such as missile defenses and other 
conventional military capabilities. And I want to repeat what I 
said earlier. The United States will continue to maintain a 
safe, secure, and effective nuclear deterrent for ourselves and 
our allies so long as these weapons exist anywhere in the 
world.
    Last year, President Obama said he would seek the peace and 
security of a world without nuclear weapons. He was also very 
clear that it might not happen in his lifetime. The standards 
for a world without nuclear weapons are very high, but we are 
taking concrete steps in that direction which make us stronger, 
safer, and more secure.
    That is why we are working to halt nuclear proliferation, 
to gain greater transparency into the programs and capabilities 
of key countries of concern and to create verification methods 
and technologies capable of detecting violations.
    In order to reduce the risk of proliferation, we will 
establish effective and internationally supported mechanisms to 
address noncompliance with nonproliferation obligations.
    Mr. Chairman, I am very happy to be here today. I am happy 
to answer any questions that you have, and I look forward to 
working with the committee on your bill. Thank you.
    [The prepared statement of Secretary Tauscher can be found 
in the Appendix on page 75.]
    The Chairman. Certainly, thank you for your testimony and 
your appearance.
    General Chilton, under the Nuclear Posture Review, can we, 
with certainty, say that America is safer because of it?
    General Chilton. Mr. Chairman, what I can say with 
certainty is that the United States Strategic Command, under 
the construct of both the Nuclear Posture Review and the START 
Treaty, is able to fully execute the missions assigned to this 
command to provide adequate strategic deterrence for the United 
States of America. Of that I am absolutely convinced. And so in 
that respect we are secure.
    And if I could add, Mr. Chairman?
    The Chairman. Please.
    General Chilton. There is a particularly important point 
that I think will strengthen us for the future under the NPR. 
It is something that I have advocated for in the past, and that 
is the funding and the commitment to funding and the focus on 
improving the nuclear enterprise under the NNSA.
    This will truly strengthen the deterrent, not only for 
today but for 20, 30, 40 years from now. And the NPR's 
endorsement of that, I think, is one of the most important 
aspects of that for strengthening our deterrence posture for 
the future.
    The Chairman. Secretary Miller, the Administration rejected 
the notion that deterring a nuclear attack is the sole purpose 
for our nuclear stockpile. Why was that?
    Dr. Miller. Mr. Chairman, the Posture Review closely 
considered the option of establishing deterrence of nuclear 
attack as the sole purpose of U.S. nuclear weapons, and 
concluded that the conditions for making such a statement, 
making such a declaratory policy, don't exist today.
    Nuclear weapons continue to play an important role in 
deterring non-nuclear attack, including conventional or 
chemical-biological attack arising from a nuclear weapons 
state.
    So, Mr. Chairman, the NPR set forth an objective of trying 
to establish conditions over a period of time that would make 
it safe for the United States and, indeed, for others to 
establish a doctrine and policy in which the sole purpose of 
nuclear weapons would be to deter other nuclear weapons. We saw 
clearly that those conditions did not exist today.
    The Chairman. Secretary Tauscher, are there any constraints 
of any kind on missile defenses within the New START Treaty?
    Secretary Tauscher. No, sir. There are no constraints of 
any kind in the New START Treaty.
    The Chairman. Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    And thank you for your testimony. It seems that much of the 
Administration's policy is rooted in the view that if America 
leads in reducing its nuclear arms, others will follow. What 
evidence, if any, do any of you have that the moral leadership 
argument actually impacts the behavior of countries we are 
trying to change, such as Iran and North Korea?
    Dr. Miller. Sir, the change and clarification of 
declaratory policy is intended to affect more than one 
audience. One is specifically those states that have not lived 
up to their obligations under the Non-Proliferation Treaty 
including, in particular, Iran and North Korea.
    A second audience is the set of states that have lived up 
to their obligations and expect that, in exchange for that, 
that they would not be held subject to nuclear threats. In 
making the changes that were made in our declaratory policy, 
the U.S. has really resolved a longstanding contradiction in 
our policy and updated it to correspond with the 21st century 
environment.
    The contradiction was between a Negative Security Assurance 
that the United States first issued in 1978, reissued again in 
2002 and several times in between, that stated that the United 
States would not use nuclear weapons against non-nuclear weapon 
states, aside from states that were allied with a nuclear 
weapons state.
    With the collapse of the Soviet Union, that second part of 
that previous Negative Security Assurance was no longer 
relevant, so that was removed from the Negative Security 
Assurance. And with the increased concerns about nuclear 
nonproliferation and states that are--such as Iran and North 
Korea--that are not meeting their obligations, in its place was 
a statement that the U.S. would not use or threaten to use 
nuclear weapons against those in compliance with their 
nonproliferation obligations.
    So we intend to affect the calculations of those states, 
Iran and North Korea. We also intend to affect the calculations 
of those states that are currently compliant but that might in 
future consider proliferation. And to have them understand that 
there are benefits to remaining non-nuclear and that there are 
costs to going nuclear.
    Mr. McKeon. Any evidence that moral leadership argument 
actually impacts their decisions?
    Dr. Miller. A number of states party to the Non-
Proliferation Treaty have made clear in previous review 
conferences that the United States posture, sometimes called 
deliberate ambiguity, but as I--or calculated ambiguity, but 
also including a contradiction in a sense, makes it more 
difficult for them to agree to the types of steps that the 
United States has proposed to strengthen the Treaty--steps that 
would include having the Additional Protocol applied to all 
states that have nuclear energy capability. And so I think that 
there is reasonable evidence that for those states that we need 
support from for strengthening the treaty, for those states 
that we need support from for ensuring compliance, that U.S. 
leadership is important. They have said so many times in the 
past.
    Mr. McKeon. Okay. I hope that is the case. The NPR appears 
to deliver a muddled message and sends mixed signals to both 
the allies and adversaries. Why did the Administration deem it 
necessary to change our nation's longstanding policy of 
calculated ambiguity? What is the national security benefit of, 
and what do we gain by making this policy change?
    Secretary Tauscher. I think part of the reason that, and 
what we want to make clear, Mr. McKeon, is that when we looked 
at both the changing security environment and history, a number 
of elements have significantly changed. The negative assurance 
policy was developed partly because of the Warsaw Pact, which 
doesn't exist any longer.
    And it is there to make clear to non-nuclear weapons states 
that are in compliance with the NPT that the United States 
specifically, and as we work with Russia and the New START 
Treaty, as the largest holders of nuclear weapons we have, 
obviously, we project the biggest threat to other folks, and 
that we wanted to make clear that we were not going to use our 
nuclear weapons in a certain number of cases and that we value 
people's adherence to the Non-Proliferation Treaty 
significantly.
    We want to get benefits from our adherence to the Non-
Proliferation Treaty and we want other countries to maintain 
their agreement to the Non-Proliferation Treaty. We, frankly, 
want universal application of the Non-Proliferation Treaty.
    So the decision was made to clarify the Negative Security 
Assurance to make clear that non-nuclear weapon states, in 
compliance with their NPT obligations, we were not going to use 
nuclear weapons against them.
    But we do have caveats, and one of them is about BW and CW, 
biological and chemical weapons. But what it also does, and 
that is why Negative Security Assurance is an interesting way 
of calling what this is, it negates and exempts many, many 
countries around the world.
    At the same time, it makes very clear that all the nuclear 
weapons states and countries not in compliance with the NPT, 
specifically countries like North Korea and Iran, are not 
exempt. So it is a way to satisfy countries that their 
adherence to the NPT, which we believe is the cornerstone of 
the nonproliferation regime and needs to be strengthened--and 
those commitments need to be strengthened--but that is what we 
are harkening to.
    And secondly, countries not in compliance will pay a price, 
and they pay the price of not being on the list of those 
countries that are exempt, and it causes us to have a different 
point of view about them. And those countries are, 
specifically, North Korea and Iran.
    Mr. McKeon. Am I correct to understand the Administration 
will pursue a universal sole purpose policy where nuclear 
weapons are only used to deter nuclear weapons? Does this mean 
that the U.S. would take the threat of nuclear use to deter its 
devastating biological or chemical attack entirely off the 
table? Why is it in our national security interest to send such 
a signal?
    Dr. Miller. Sir, the NPR set an objective of setting 
conditions so that the United States and, indeed, others, could 
over time move to a posture where the sole purpose of nuclear 
weapons is to deter nuclear use by others. It is stated 
clearly, and was a result of detailed analysis and extensive 
discussion, clearly, that these conditions do not exist today.
    And as you have suggested, one of the big reasons that they 
don't exist today is that we have nuclear weapons states that 
have significant conventional and the potential, at least, for 
chemical and biological capabilities. And both we and our 
allies believe that sustaining the nuclear deterrent to cope 
with these challenges is necessary at this time.
    Mr. McKeon. I guess we are just going to have a difference 
on that. It seems to me that deterrence should be the maximum 
that you can provide; that no matter what they attack us with, 
we will hit with our maximum use. A devastating chemical or 
biological attack that we say ``we will just respond with non-
nuclear weapons,'' it just seems that we are taking a lot off 
the table but I, you know, I understand that we have a 
difference here.
    Secretary Tauscher. Mr. McKeon, we have the largest nuclear 
force matching the Russians. And we have the most superior 
military in the world and the best conventional weapons in the 
world.
    Mr. McKeon. And we also have nuclear, and why we would take 
that off the table if they only hit us with chemical or 
biological, it just seems that, like I say, I think that is 
something we are just going to have a difference of opinion on.
    Dr. Miller. Sir, if I could add briefly, deterrence is a 
combination of capability and credibility. And with respect to 
non-nuclear weapons states, this NPR states explicitly that any 
use of chemical or biological weapons would result in a 
devastating conventional response and that the leaders, 
including political leaders and military commanders, would be 
held fully accountable.
    That is a shift from calculated ambiguity. It is a very 
direct statement and, as Under Secretary Tauscher indicated, 
given the conventional military power of the United States, it 
is not only credible but it has a tremendous amount of 
capability behind it.
    Mr. McKeon. But less capability than we have if we do not 
use nuclear.
    The Chairman. I thank the gentleman.
    Mr. Spratt.
    Mr. Spratt. Thank you all for your testimony, but more than 
that, for what you have accomplished. I think it is monumental. 
It is a step towards something we have been seeking for a long, 
long time.
    CTBT has been pending for years. It was submitted for 
ratification, and the Senate didn't pass the test. My notes 
here indicate that this Comprehensive Test Ban will be 
resubmitted for ratification with additions. What are the 
additions to the CTBT?
    Secretary Tauscher. Right now the President is preparing 
the START package to go to the Senate, and the first priority 
of the Administration is to get the START Treaty ratified. The 
advice and consent of the Senate is enormously important. It is 
a supermajority needed to get START ratified.
    As Vice President Biden, who is the head of the effort to 
get the CTBT ratified has said, START goes first, and then we 
will look at CTBT. Obviously, we are very much helped by the 
Nuclear Posture Review and the fact that the Administration has 
spent so much time making this debate a very public debate, one 
that is informing the American people and our allies.
    So what is important is that we get the START Treaty put 
forward first. On whether we have additions to CTBT or not, we 
will have to see as we look at the submission. But as Vice 
President Biden has said, CTBT will not be submitted to the 
Senate until it can pass, and that is an environment that we 
are working on every day.
    Mr. Spratt. It is also mentioned in the materials and in 
your testimony of a nuclear materials cutoff. Is that treaty 
drawn? Do we have the text of that treaty? That is an 
interesting concept.
    Secretary Tauscher. The Conference on Disarmament in Geneva 
last May agreed in a very historic way for a program of work to 
look at, begin negotiations on the Fissile Material Cutoff 
Treaty. There is one country, however, that is blocking the 
going forward of the program of work in the Conference of 
Disarmament.
    We are all working hard to convince that country that this 
is just the beginning of negotiations and that they should go 
with what the majority has said under consensus to go forward 
and begin negotiations, and not stand in the way of that. But 
so far our efforts have been unsuccessful.
    But once the FMCT, Fissile Material Cutoff Treaty begins 
negotiations, which we believe will be a long, multi-year 
process, eventually that will have to be ratified by the 
Senate.
    Mr. Spratt. So these things are not necessarily 
interdependent. They can stand on their own?
    Secretary Tauscher. Yes.
    Mr. Spratt. I have been very much concerned about tactical 
nuclear weapons and whether or not as we dealt with these large 
systems, we have shown enough attention to the smaller systems 
which, really, could be dangerous if the wrong people or 
terrorists got their hands upon them. What do these agreements 
do for effective tactical or non-strategic nuclear weapons? 
Jim.
    Dr. Miller. Mr. Spratt, what we have said is that, after 
ratification and entry into force of the New START Treaty, the 
Administration would like to engage with Russian follow-on, 
bilateral discussions that are aimed at addressing not just 
strategic weapons but strategic and non-strategic weapons, 
these tactical nuclear weapons and also deployed and non-
deployed weapons.
    We would like to get that on the other side of ratification 
and entry into force of New START and the President has asked 
us to begin to develop potential negotiating positions and 
objectives for that, including considerations of what are the 
likely future requirements for deterrence, what are likely 
postures of Russia and also we will begin a consultation with 
allies to address that problem.
    We also have suggested that we intend to continue strategic 
stability discussions and expand them with Russia. And one of 
the issues we would like to discuss in those is the question of 
whether Russia might move back further into the interior of the 
country its tactical nuclear weapons and ensure they are as 
secure as possible.
    Mr. Spratt. One final question. There is a substantial 
increase in nonproliferation in this year's budget request. I 
think it is $550 million. Could you tell us quickly or briefly 
what these additional funds will go for?
    Secretary D'Agostino. Mr. Spratt, these funds were largely 
focused on security work, material security work overseas. 
There is a significant amount of work that we are involved in 
converting research reactors from Highly Enriched Uranium 
(HEU)to Low-Enriched Uranium. So a significant portion of those 
funds will go towards agreements and discussions that we are 
already looking at to make that happen.
    Mr. Spratt. Thank you.
    The Chairman. Thank the gentlemen.
    Mr. Bartlett.
    Mr. Bartlett. Thank you all for your service. I note that 
the Posture Review, specifically, states that we are going to 
retain the triad. Relative to that, Dr. Miller, I note that the 
Chinese have developed the capability of taking out a 
satellite, and we can take out a ballistic missile.
    This new deep strike bomber will fly considerably lower 
than a satellite and considerably slower than a ballistic 
missile. I know that they will be stealthy, but their radar 
cross section area is not zero, and radars are being improved.
    Are you sure that, in the development of this new bomber, 
that the juice will be worth the squeezing, or is the jury 
still out on specifically what we will do?
    Dr. Miller. Sir, as a follow-on to both the Nuclear Posture 
Review and the Quadrennial Defense Review, the Department is 
currently looking at the mix of long range strike capabilities 
that the military will need for the coming decade or two.
    Included in that mix is a consideration of a future 
penetrating bomber. Also included is an alternative standoff 
bomber, the mix of cruise missiles, both air-launched and sea-
launched, for conventional capabilities and, finally, the 
supporting intelligence, surveillance, and reconnaissance and 
electronic warfare capabilities that are required as well.
    We are also looking in that study at the appropriate scale 
of any conventional Prompt Global Strike capability, which 
could be either in the form of an ICBM or SLBM with a 
conventional warhead, which does raise some stability 
considerations, and/or Hypersonic Glide Vehicle, which is an 
alternative approach, so it would have a very different profile 
from the standard ballistic missile.
    The Department is looking at those issues now and will 
submit its recommendations as part of the fiscal year 2012 
budget request.
    Mr. Bartlett. Thank you very much.
    General Chilton, the location of our missile silos, I 
gather, is pretty generally known?
    General Chilton. I would suspect so.
    Mr. Bartlett. Okay. It is also true, I believe, that they 
were developed in an era where there was not much precision on 
the part of nuclear weapons and that it was unlikely that there 
would be a direct hit. They, in fact, are not really hardened, 
are they, against a nuclear attack?
    General Chilton. Well, they are hardened against a nuclear 
attack, but as you point out, Mr. Bartlett, as certain 
countries have increased their accuracy on some of their 
delivery platforms, they put them more at risk than they were 
in the past.
    Mr. Bartlett. That, I think, is increasingly true, which 
means that you either use them or you lose them. Doesn't this 
markedly increase the probability of an exchange? And shouldn't 
we be moving to something that is not vulnerable, like mobile 
missiles?
    General Chilton. Actually, the posture that we have our 
ballistic missiles in, our land-based ballistic missiles in 
today, is quite stabilizing because it makes the calculus of a 
potential adversary much more difficult and much less likely 
for them to be incentivized for a first strike.
    Mr. Bartlett. But if we know, sir that----
    General Chilton. It would be because a large number of----
    Mr. Bartlett [continuing]. If we could take them out, 
doesn't that mean that we have an incentive to use them 
quickly, or we are going to lose them?
    General Chilton. We have----
    Mr. Bartlett. To me it does.
    General Chilton [continuing]. Because of the large amount 
of weapons that they would have to commit against this, it 
disincentivized that attack. And also, because of the ability 
to launch out from under attack and the uncertainty that exists 
because of that, they are an essential part of the deterrent 
today.
    I would comment though, that your point on as we look 
forward to the replacement for the Minuteman III someday post-
2030, that one of the things we ought to consider in that is 
whether or not the follow-on would be more survivable than the 
current force structure that we have today.
    That is certainly the direction that the Russians went in 
with their land-based mobile missiles. So I would agree that it 
is something we need to consider as we look at the follow-on to 
the Minuteman III.
    Mr. Bartlett. Secretary Tauscher, I note that the new 
posture report talks about counting actual missiles rather than 
launchers, which is a big move forward because, in the past, we 
counted only launchers. As you know, the Soviets and the 
Russians now have a cold-launch capability where they can 
launch more than one weapon from a single launcher.
    We burn up our launchers. So if you count launchers, you 
are equal in launchers. They would be superior in delivery 
capability. I am pleased that this new regime now equalizes 
that. Thank you.
    I yield back.
    Mr. Spratt [presiding]. Mr. Taylor.
    Mr. Taylor. Thank you, gentlemen, for being with us. Ms. 
Tauscher, welcome back. General Chilton, I am looking out 10 
years, very much concerned about what the effect of the Ohio-
class replacement is going to have on the overall defense 
budget.
    If the Navy is estimating a ship that is going to cost $7 
billion, it is probably going to cost $10 billion, based on the 
way things have been going. I am told that one of the driving 
factors on the Ohio replacement is that, within the Navy, the 
decision was made to build a ship around the D-5 missile. That 
the range of the missile is a factor of its width and length 
and that, basically, the Navy said we are going to keep the 
missile, change the ship.
    To what extent has your command looked at options to that? 
I was fortunate enough to have a great tour at Kings Bay on 
Friday and, again, very professional. Everything was very 
impressive, but it reinforced my opinion that the Navy has made 
the decision already to build a ship to fit the missile, and 
that missile is the D-5.
    Have there been any analyses of alternatives to that 
decision or are any planned because, again, you know, 2020 is 
not that far away when it comes to ships that we have got to 
start building in 2018. We have got to start budgeting even 
before that.
    General Chilton. Thank you, Mr. Taylor, and thanks for 
visiting our folks down there at----
    Mr. Taylor. Very impressive.
    General Chilton [continuing]. Kings Bay. That is really 
important for them to be recognized for the great duty they do 
for our country, and I am sure they appreciated your visit. We 
have been, STRATCOM has been working closely from a 
requirements perspective, certainly, with the Navy and with the 
Strategic Systems Programs, the office responsible for 
developing the designs, maturing those designs for the follow-
on to the current Ohio-class Trident submarine fleet.
    And although the follow-on will be able to carry the D-5, 
part of the requirements are that it also be able to--
anticipating a life of 40 years--to be able to do something 
other than just carry the D-5. And so as part of--and that, in 
fact, was part of the initial thought when the Ohio-class was 
built. The D-5 didn't exist.
    Yet, the Ohio-class was built to accommodate a larger 
missile than the Poseidon at the time, fortunately, because 
that allowed us then to not have to build a new submarine as we 
advanced missile technology to the D-5 level.
    The same will be true for the follow-on to Ohio-class. 
There will be room for growth and increased performance, either 
of a missile beyond the D-5 or for alternative mission sets 
that might be put into that platform should they be required.
    Mr. Taylor. Well, I guess, to restate my question, is the 
decision to stick with the D-5, is that written in stone--or 
the closest thing to it within the Pentagon?
    General Chilton. Well, I would say, in the current plans 
that we are seeing that the Navy has, is to sustain the D-5 
through the life of the current Ohio-class and to make it the 
initial missile that would be deployed on the follow-on.
    But there is a view that we need to design into that 
follow-on a capability for some unknown future growth or 
capability in the future as we did with the Ohio-class in its 
original design. So right now my understanding of the plans is 
that the D-5 would be the weapon that would be fielded first on 
the replacement.
    Mr. Taylor. But going back to my question about, can you 
provide for me any sort of analysis of alternatives as to 
whether or not it made more economic and national security 
sense to build a ship that fits the missile, as opposed to 
building a missile that might fit a Virginia-class, which has 
been a very successful program, or some variant of a Virginia-
class?
    General Chilton. With regard to studies, we certainly can 
show you everything that we have done at STRATCOM and what the 
Strategic System Program Office (SSP) has done as well, which 
is the Office in the Navy that has worked on the design 
trades----
    Mr. Taylor. Okay.
    General Chilton [continuing]. That are still going on. We 
would certainly be willing to share that with you.
    Mr. Taylor. I would welcome that, hopefully, sooner than 
later, sir.
    General Chilton. I will take that back to the Navy and talk 
to them about it, Mr. Taylor, and we will get that to you.
    Mr. Taylor. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Spratt. Mr. Thornberry.
    Mr. Thornberry. Appreciate you all being with us today. 
Virtually everybody agrees that an essential condition of 
START, of this Nuclear Posture Review, of reassuring our 
allies, is making sure that we have a strong, credible 
deterrent and a modern, agile infrastructure--and with 
infrastructure, I mean people, too.
    I mean, if you don't have those things, the rest of this 
seems to all fall apart, so I want to pose two questions, 
probably for Secretary D'Agostino, but others may want to 
comment. The first question is this. Every declared nuclear 
power in the world is making new weapons all the time except 
us, and probably the undeclared ones are doing the same--are 
doing it as well.
    France, for example, in 1995, 1996 decided that they saw 
this non-testing regime coming. They conducted a series of 
tests, specifically for designs that would be more robust and 
that would last out in the future. We did no such thing.
    Now, I know we have got lots of smart people and we have 
got lots of fancy tools, but I have some doubt that we are that 
much smarter than every other nuclear power in the world. This 
Nuclear Posture Review says no more nuclear weapons--no new 
nuclear weapons, a strong preference for refurbishment, and 
only as a last resort would we replace any of the nuclear 
components.
    So my question is, isn't this putting a political agenda 
ahead of the science with a certain degree of arrogance, maybe, 
that we can do something indefinitely that nobody else can do? 
My second question is this.
    Paragraph after paragraph in this Nuclear Posture Review 
talks about all the Administration is going to do for the 
nuclear weapons complex. And there is no doubt funding is 
significantly up, particularly as opposed to the last 
Administration. Mr. Spratt mentioned a big chunk of it goes to 
nonproliferation. But even in the complex, funding is up.
    And yet for this year's budget, Y-12, as I understand it, 
is about $100 million underfunded. Pantex is $125 million 
underfunded, and they are talking about layoffs this year. As I 
understand it, cuts in the test site budget, so my question is 
why should we believe that this increased commitment to the 
nuclear weapons complex is going to last any longer than the 
START ratification?
    Secretary D'Agostino. Mr. Thornberry, I will start with 
your first question and go to the second question. The Nuclear 
Posture Review provides, absolutely provides the flexibility we 
need to maintain our deterrent. That is the commitment to have 
a safe, secure, and effective deterrent.
    The Nuclear Posture Review also provides for allowing all 
options, and I want to reinforce that, all options to be 
studied, including replacement options. Because the key is to 
go back to just to focus on what Congress authorized last year 
is the Stockpile Management Program, which says make sure that 
we can maintain our deterrent and drive as much safety and as 
much security and as much reliability into the warheads 
themselves.
    That is very challenging technical work, frankly. It is 
also the kind of work that our scientists and engineers relish. 
They want that flexibility and the lab directors feel, and 
their statement that I mentioned earlier, describes that 
capability.
    It is a challenge. And it is hard work to do this, and our 
scientists, and I have talked to many of them, feel that this 
NPR gives them the flexibility to maintain that stockpile out 
into the future. This is decades' worth of work that we have 
identified in the NPR.
    And what our scientists actually want is the understanding 
that the Nation cares about the work, knows that it is 
important, and that it is sustainable over multiple Congresses 
and multiple administrations. And, in fact, that is the balance 
that we feel that we appropriately struck here. So our focus is 
moving forward consistent with the principles of the Stockpile 
Management Program.
    On your question on funding, what we typically do, what we 
always do in a budget year when we submit a President's budget, 
where we know for sure where our allocations need to go on a 
site-by-site basis, we allocate those in the budget.
    The last remaining category is what we call the 
headquarters account. It is resources that will always be spent 
out in the field, but because we are waiting for final 
adjustments, we haven't allocated them yet to a specific site.
    General Harencak is aware of adjustments that he needs to 
make, moving of resources into these accounts to make sure that 
the sites are appropriately maintained, and he is working with 
the sites on that.
    And, in fact, that is a key element of our consideration of 
our fiscal year 2012 and out-year budgets, because as you know, 
sir, we submit our program and budgets in 5-year increments.
    Mr. Thornberry. Well, let me just say, I think if you are 
going to really convey a commitment to the scientists and 
others that playing these games about holding some money back 
so that it can be allocated at the last minute to prevent 
layoffs, doesn't provide that message. But let me get back to 
the lab directors.
    I heard what you said. They support the full range of 
options. And I appreciate a Nuclear Posture Review is a 
political balancing act, but you can't read these words about 
no new nuclear warheads, no new nuclear components, strong 
preference for refurbishment, and believe that the full range 
of options is really there. It looks to me more like words than 
real action, but I appreciate the response.
    Secretary D'Agostino. Mr. Thornberry, if I could just 
reply. I want to assure you that we don't play games with the 
budget. We take it very seriously. And the headquarters account 
line is merely to make sure that, when we allocate those 
resources, we know they are going to the right spot as a result 
of changes. And our focus, of course, is our people.
    The one thing I would like to remind is that our key focus 
is to focus on the 2010 National Defense Authorization Act, on 
the Stockpile Management Plan, which clearly outlines the 
principles of maintaining safety, security, and reliability. No 
new warheads, for new mission capability, no underground 
testing, and the ability to put in place a confidence in the 
stockpile that the country can actually start reducing the 
total numbers of the stockpile. So that is our focus and that 
is our plan.
    Mr. Spratt. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you all for 
being before us again today and it is nice to see my friend, 
Ms. Tauscher, back and on the successful negotiation on that 
START Treaty, so congratulations to you and to all on our 
panel.
    General Chilton, are you confident that the limitations on 
the Russians in the New START Treaty actually can be verified, 
and that the verification procedures imposed on the U.S. will 
not interfere or jeopardize our operation of our nuclear 
forces? And are there any inspection or verification challenges 
that aren't addressed in this treaty that would concern you?
    General Chilton. Verification is an important part of this 
treaty, Ms. Sanchez, as you know, and it is one of the key 
elements that I supported for having a treaty, is that we would 
sustain some verification capabilities. The part of the 
Government that really paid most attention to whether or not 
the verifications were adequate or not in support of the 
negotiations was the Intelligence Community.
    So the Director of National Intelligence was consistently 
brought in, his team, to be asked those questions, and I defer 
to their expertise along that way on whether or not the 
verification measures were adequate.
    And my assessment in listening to the discussions along the 
way and what has been included in the current verification 
protocols in the proposed treaty, I think, will be adequate for 
us over the life of the treaty to ensure compliance.
    Ms. Sanchez. The Nuclear Posture Review concluded that the 
threat of global nuclear war has become more remote, but the 
risk of nuclear attack has actually increased, especially in 
today's immediate and extreme danger, which is nuclear 
terrorism, especially when we look at Al Qaeda and others 
trying to gain access to nuclear weapons.
    So I would like to ask Secretary Tauscher, how will the NPR 
strengthen the President's ability to combat the threat of 
nuclear terrorism, and the effects of rogue states in 
particular, such as Iran or North Korea, from obtaining and 
proliferating this nuclear technology?
    Secretary Tauscher. Thank you, Congresswoman Sanchez. The 
President relies on a number of tools in the toolbox to 
persuade countries from not acquiring nuclear weapons and for 
countries to adhere to the Non-Proliferation Treaty's 
guidelines in the most strictest way. The first is the Non-
Proliferation Treaty Review, which begins in the first week of 
May.
    And as we state in the Nuclear Posture Review, and as we 
stated and both presidents stated when they signed the New 
START Treaty, that these commitments that we make, both in the 
New START Treaty bilaterally, with the reductions in the very 
strong verification regime that we have, and with the Nuclear 
Posture Review with the stronger Negative Security Assurance 
and the declaratory policy, and the new role and the diminished 
roles that the President has called for, what the President is 
saying is that the Nuclear Non-Proliferation Treaty is the most 
important opportunity we have to galvanize the world community.
    And for those countries that find themselves in 
noncompliance of the Non-Proliferation Treaty, then they come 
under the Negative Security Assurance in the most non-positive 
way.
    Ms. Sanchez. Mrs. Tauscher, the concern I bring up is 
because we read today in the Washington Post, for example, that 
Syria has transferred long-range Scud over to Hezbollah, which 
is on our terrorist list.
    So you know, when we look at that, our inability to really 
stop some of this from going on, and the fact that Iran has 
already declared, for example, that it wants to obliterate 
Israel from the face of the earth. And, you know, North Korea's 
posturing, continued posturing with the western world, in 
particular with the United States, what real tools do we have 
to----
    Secretary Tauscher. We have the Non-Proliferation Treaty. 
And what is important is, for countries like Syria, where we 
have asked the International Atomic Energy Agency (IAEA) to 
fully investigate some of the allegations and rumors that are 
aswirl about Syria, that is another important element where you 
need to have a strong verification regime and then strong 
inspection regime.
    And that is why we have advocated for better funding and 
better management of the IAEA. We have a new Director General 
there, Dr. Amano. So there are a number of different things, 
Congresswoman, that the President relies on.
    But once again, what we have to do is stand up very clearly 
for what we want to use nuclear weapons for, and make it very 
clear that we have the strongest deterrence we have ever had. 
That we are investing in the modernization of our stockpile in 
a way that doesn't lead people to believe that we are outside 
of our commitments to the Non-Proliferation Treaty.
    Article 6 of the Non-Proliferation Treaty calls on all 
nuclear weapons states to disarm. And so we are keeping it very 
much in mind with our commitments to the Non-Proliferation 
Treaty at the same time that we say that we are going to 
maintain our nuclear weapons for as long as there are nuclear 
weapons, until we can actually disarm ourselves.
    Ms. Sanchez. Thank you, Madam Secretary. And I will just 
say to the gentlemen you didn't have time. I was going to ask 
you all the same question about this issue of how, you know, 
what do we really use? What are the tools we really have? And 
of course, you will have different ones than maybe what Mrs. 
Tauscher mentioned.
    I will submit that question for the record because I would 
love to get an answer back from you all. Thank you.
    Thank you, Mr. Chairman.
    Mr. Spratt. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank all of 
you for being here. I have a great deal of respect for each of 
you and, Ms. Tauscher, it is great to see you back again. I am 
glad that you are visiting our committee.
    Dr. Miller, the President, last May in Newsweek said, ``I 
don't take options off the table when it comes to U.S. 
security, period.'' Well, the NPR, the Administration's NPR, 
clearly takes options off the table.
    It provides assurances that the U.S. will not use nuclear 
weapons defensively, even if we are attacked by an NPT-
compliant state and even if that attack is by bio or chemical 
weapons. So an option is clearly being taken off the table.
    When you were asked by Mr. McKeon the issue of why the 
Administration didn't adopt the sole purpose doctrine, which 
was signaled in the NPT, that maybe the Administration in the 
future would like to go there--sole purpose being that a 
nuclear weapon's sole purpose being to deter nuclear--you 
answered that we did not go all the way to sole purpose because 
nuclear weapons play an ``important role in deterring non-
nuclear attacks.''
    How do you reconcile that, as your current statement, the 
``important role in deterring non-nuclear attacks'' with this 
policy? Because I agree with you, I think that they play an 
important role in deterring non-nuclear attacks and, by taking 
them off the table, you are eliminating that as a deterrent. 
How do you reconcile those?
    Dr. Miller. Sir, there are two very different cases. The 
first is the case of a state possessing nuclear weapons or a 
state not in compliance with its nuclear nonproliferation 
obligations. And in that case, the United States reserves the 
right to use or threaten to use nuclear weapons in response to 
a biological attack or, indeed, as you suggest, to a 
conventional or a chemical attack.
    This includes nuclear weapons states. It also includes Iran 
and North Korea. And, Mr. Turner, if you look at an assessment 
of the states with significant WMD capabilities, you will see a 
significant overlap between those different varieties of 
nuclear, chemical, and biological.
    And the assessment of the NPR and of our leadership was 
that, where things stand today, the U.S. conventional 
capabilities, including with a very clear statement that any 
use of weapons of mass destruction would result in individuals, 
including leaders and commanders, being held individually 
accountable.
    And including the statement that any use of WMD by a non-
nuclear weapons state would result in a devastating 
conventional military response, the conclusion was that these 
clarified and strengthened statements about the nature of the 
U.S. response involving conventional capabilities were more 
than adequate to deter chemical and biological weapons used by 
that second category of states. And that is the states that are 
non-nuclear weapons states and are in compliance with their 
nuclear nonproliferation obligations.
    So it involved an assessment of where things stand today 
with respect to the threat. And projecting forward, they 
considered the possibility of future trends in chemical 
weapons, future trends in biological weapons as well.
    And the conclusion was that we should have a greater 
concern about the future potential of biological weapons 
because of trends in biotechnology. And that is the reason for 
the caveat that----
    Mr. Turner. Well, I want to reclaim my time here.
    Dr. Miller [continuing]. In the future we reserve a right 
to----
    Mr. Turner. I appreciate your answer. I think there are a 
great deal of people, a number of people who disagree with you, 
that there is still a role for the deterrence that nuclear 
weapons provide.
    Secretary Tauscher, question for you. I had the opportunity 
to travel with you to NATO, to Poland, to Czech Republic, and I 
know of your commitment to missile defense that you have stated 
clearly in hearings and in this committee and with our NATO 
allies.
    As we look to the START agreement, there is language in the 
preamble that indicates that there is a relationship between 
missile defense and the subject matter of the START agreement. 
The Russian leaders have signaled that their view of that 
relationship may be more direct than our view, maybe even more 
significant.
    They have gone as far as to indicate that they might 
withdraw from the treaty, depending upon what the United States 
does in deployment of missile defense. Now, Congress has yet to 
receive the complete information about the Administration's 
plans for the Phased, Adaptive Approach for missile defense 
that includes both Europe and defense of the homeland.
    So it is my expectation, and probably others, that the 
Administration has not shared that with Russia yet. So the 
question that we have is, you know, what is being done 
currently to determine whether or not, as we are proceeding to 
START ratification, if the Administration is pursuing currently 
with the Phased, Adaptive Approach, a policy that the Russians 
might view as terminal to START?
    Secretary Tauscher. Let me just bring three things forward, 
Mr. Turner. First and foremost, in the preamble of the START 
Treaty, there is an interrelationship acknowledged between 
strategic offensive and strategic defensive weapons.
    In Article 5, Paragraph 3, there is further conversation 
about that and its relationship, very similar to what was in 
the original START agreement; unilateral statements. When I 
went to treaty school, before I went to Geneva just recently, 
what is interesting about a treaty is, what is it? It is agreed 
statements. It is what the two parties agree.
    What are unilateral statements? Things that people don't 
agree on. In the original START agreement in 1991, both the 
United States and Russia included unilateral statements. The 
interesting thing is that it was--the Russian statement was 
very similar to what they are saying now, that if things that 
we do, either conventionally or on our strategic side, 
interfere with their strategic balance, they may withdraw from 
the treaty.
    What was interesting about what happened then is that we 
also said something similar about, we are going to do whatever 
we are going to do to protect ourselves, which is something 
like what we said this time.
    Interestingly, we abrogated the Anti-Ballistic Missile 
Treaty and built missile defenses, and the Russians never left 
the START Treaty. So I think that, while much is being made of 
these unilateral statements, I think history shows us that 
everyone is going to have statements, which are sometimes 
political and, sometimes, are meant to indicate a red line.
    On missile defense, there are no constraints to our missile 
defense systems. The Phased, Adaptive Approach is what has been 
up on the Internet since September and is what we have 
discussed with the Congress. And I am happy to come back at any 
time and refresh if I need to.
    But it is a system that starts in 2011, as you know, in the 
Mediterranean with Aegis ships, and then 2015 in Romania, who 
has agreed to take Standard Missile 3 (SM-3), and then in 2018 
in Poland with SM-3 land-based.
    The Russians have read the Ballistic Missile Defense 
Review. They have been briefed like everyone else. There are 
always elements in each country that are more conservative than 
others, that have specific issues and are concerned about 
certain things.
    We have done everything we can to convince the Russians 
that our missile defense system is limited and regional in 
scope. And what its architecture looks like and how it is not 
adaptable or it threatens them.
    But I think the most important piece of this is that as of 
many of the good things that have happened in the START 
negotiations and the resetting that President Obama and 
Secretary Clinton embarked on last year with the Russians. We 
are also discussing with Russians a missile defense 
cooperation.
    So there are many opportunities for us to move forward, but 
we have made clear what exactly the Phased, Adaptive Approach 
is. And it is not targeted against Russia, and it does not 
threaten Russia's strategic balance right now.
    Mr. Spratt. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman, and thank you all 
for your service. I understand the NPR and START both take off 
the table basically any additional research by the United 
States in the development of either tactical or strategic 
nuclear weapons. Is that correct understanding?
    Dr. Miller. Let me just answer very briefly and then turn 
it to Tom D'Agostino. What the policy statement in the NPR says 
is that the United States will not develop new nuclear 
warheads. That means that any warheads going forward will be 
based on previously tested designs.
    It says that within the range of Life Extension Programs 
that are considered, which include refurbishment, reuse, and 
potential replacement, that all options will be studied. And 
the summary that we have received from the labs is that that is 
more than adequate to ensure that we have a very strong 
science, technology, and engineering base that is able to 
support our stockpile over time.
    Mr. Marshall. And is that reflected in the START Treaty, 
that we will not be doing research on additional nuclear 
weapons?
    Dr. Miller. It is not addressed in the START----
    Mr. Marshall. It is not.
    Dr. Miller [continuing]. Treaty.
    Mr. Marshall. Okay. So it is just the NPR. The Reliable 
Replacement Warhead (RRW) is something we have been discussing 
for some time, and NNSA and Secretary Gates and others were 
interested in moving forward with research and development.
    Do I understand you to be saying, Mr. Miller, that that is 
a possibility in the future depending upon--what? At the 
moment, we are not going to continue research in a replacement 
warhead, but we might in the future?
    Dr. Miller. Sir, the Reliable Replacement Warhead Program 
is terminated by Congress and is, in our view, it is not coming 
back. We don't propose to bring it back.
    What we do propose, as we think about the statement of the 
stockpile over time, is to consider the full range of Life 
Extension Programs in which replacement of nuclear components 
is one of the options. Propose that all of the options be 
studied, and that preference be given to refurbishment or 
reuse.
    Mr. Marshall. So whatever you call it----
    Dr. Miller. Yes.
    Mr. Marshall [continuing]. The NPR leaves open the 
possibility that we conclude that it is advisable for us to 
replace existing nuclear weapons?
    Dr. Miller. That is----
    Mr. Marshall. That we will continue to consider that and we 
will maintain the engineering and intellectual capital that we 
need in order to actually execute that if we conclude that is 
necessary.
    Secretary D'Agostino. If I could add to that, absolutely. 
The NPR allows us to study the full range of options, which is 
vitally important to extend the life of the stockpile. That 
there are differences, actually, key differences between what 
was proposed in the previous administration in RRW program and 
what we have right now in stockpile management.
    Dr. Miller said the RRW program has been canceled. In fact 
it was canceled by Congress. In its place, we put in place the 
Stockpile Management Program. In the context of the NPR of the 
time, which was done in the year 2001, the RRW program sought a 
total transformation of the stockpile where the Nuclear Posture 
Review under Stockpile Management proposed to----
    Mr. Marshall. Yes, I think I have got this. This START 
Treaty, if we decide to move forward with the replacement 
weapon, it wouldn't prohibit us from doing that?
    Secretary Tauscher. The START Treaty is agnostic.
    Mr. Marshall. On that subject.
    Secretary Tauscher. Yes.
    Mr. Marshall. Bunker busters, you know, those sorts of 
things that we talked about in the early, you know, parts of 
this decade, they are out?
    General Chilton. Congressman, I have no new requirements 
for new capabilities in our weapons. And, in fact, what we want 
are increased safety, security, and reliability in these----
    Mr. Marshall. Yes, I have got that, but I am just 
wondering, in the START Treaty or NPR, are those things that we 
don't have existing requirements, are we prohibited from at 
some point in the future--hopefully this doesn't happen--but 
are we prohibited at some point in the future either by treaty 
or by this NPR from investing in a specific nuclear weapon 
designed to accomplish a specific objective if we conclude that 
we have that need?
    General Chilton. START does not limit anything that we need 
to do.
    Mr. Marshall. NPR?
    Dr. Miller. As a matter of policy, the NPR says that the 
United States will not develop weapons for new military 
capabilities or new military missions.
    Mr. Marshall. If we wind up having a new military mission 
or need we assess that we have a new need for a capability, NPR 
could change?
    Dr. Miller. The infrastructure and the intellectual capital 
necessary to do that would be in place, so it would be a policy 
choice.
    Mr. Marshall. Okay, thank you.
    Mr. Spratt. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you gentlemen for 
being here and Secretary Tauscher, delight to see you again, 
thank you for being here today.
    I would identify with the remarks of Mr. McKeon and Mr. 
Turner about concerns of taking options off the table in 
deterrence. And I am tempted to beat on that horse some more, 
but I am not going to do that.
    I would like to take advantage of the assembled presence 
here. And I think probably principally Secretary D'Agostino 
from the Department of Energy, to address another but somewhat 
related issue.
    And that is my concern that the Secretary of Energy and the 
Administration have recently taken steps to terminate the Yucca 
Mountain repository program and withdraw the license 
application and put in zero funds for that program. And I was 
wondering if any of you could address what the defense 
community's plans are for the short- and long-term disposal and 
storage of spent fuel--particularly defense, but any spent 
fuel?
    Secretary D'Agostino. Sure, Mr. Kline. The Secretary has 
put together a Blue Ribbon Commission of experts, bipartisan 
and across a wide variety of expertise--policy, programmatic, 
technical.
    Mr. Kline. And they are going to report in a couple of 
years as I understand, is that right?
    Secretary D'Agostino. Well, they are going to report in 18 
months is when the final report comes out. We will have some 
indication in less time than that. An element of that look by 
the commission is not just this question about civil nuclear, 
but the defense material is clearly identified in that.
    We are keenly looking at that. We are aware of our 
obligations to the states that we have right now. Admiral 
Donald, as part of his requirements for the state of Idaho, for 
example, we understand our obligations on moving the material 
and taking care of that material.
    So we are looking at the Blue Ribbon Commission to address 
that, and I will be watching that. I am keenly interested in 
that particular piece, and I am confident it will be addressed 
very clearly as part of that.
    Mr. Kline. I certainly hope so. I mean, this is very 
frustrating for many of us and those who have been on the civil 
side, nuclear waste piling up. In my case, I have got a nuclear 
power plant on an island in the Mississippi River co-located 
with an entire community. And we are just piling up the 
caskets.
    And it is very, very frustrating to see this program--after 
all this time, all this money--terminated and now we have got 
another blue ribbon committee, commission of some kind going to 
study some more.
    So just want to express my frustration and see if anybody 
had anything, you know, any more current notion than that. So I 
just express my frustration and hope this commission comes 
forward and we get a solution to this. And we stop piling this 
stuff up in places like Prairie Island.
    I yield back, Mr. Chairman.
    Mr. Spratt. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and I apologize 
because I may be asking something similar, but I wanted to just 
go back to the issue of the budget, because you spoke of the 
modernization and the need to upgrade.
    And yet I have constituents that, in their words, and I am 
quoting, ``I am outraged by the 10 percent increase in nuclear 
weapons funding at a time when so many other domestic programs 
are subject to a spending freeze.''
    And this particular individual, and we have a number of 
letters like this, are a little confused right now because of 
what we are doing and the changes that are being made.
    Could you, in perhaps greater detail, and I apologize if 
you have already addressed this, what exactly does that 
modernization entail that we are spending the additional money 
for the Chemistry and Metallurgy Research Replacement facility 
in New Mexico, the Uranium Processing Facility? What does that 
do for our country?
    Secretary D'Agostino. I would be happy to take that 
question, ma'am, if I could. And others might follow behind. 
The key thing that I look at is that there is an infrastructure 
that we are maintaining, which includes the people, the 
expertise. It is not just taking care of the deterrent. That is 
a key and very important job, but that is the same expertise 
that we need in order to do our nonproliferation work around 
the world.
    In any given point in time, we are operating in 100 
countries, but these are people that are from the Department of 
Energy and NNSA. These are experts in how to handle nuclear 
material, radiological material. They are providing security 
overseas. They are collecting U.S. material that is overseas 
and bringing them back.
    These two facilities that you just described are the only 
places in the country where we will be able to work with those 
materials, to characterize those materials and make sure they 
are locked up tight. Not work for nuclear bombs, but work to 
make the country safer, make the world safer.
    But at the same time, so this 10 percent increase that we 
talked about in the Weapons Activities account provides that 
core infrastructure that addresses nuclear nonproliferation, 
nuclear counterterrorism, nuclear forensics, nuclear emergency 
management, that whole suite of nuclear security missions.
    But of course, we are also spending some of that to take 
care of our stockpile, because the stockpile was designed for 
the large part in the 1960s, 1970s, and early 1980s and it is 
getting older and older year by year.
    And we have a commitment--I have an obligation to General 
Chilton, to the President, to make sure that the stockpile that 
we have is as safe and secure as possible. And it requires some 
work to do that.
    General Chilton. If I could add to that? Besides the 
important benefits to nonproliferation, counter-proliferation, 
to the science base that the Secretary pointed out, 
improvements to the infrastructure would support, in the 2020 
time period, once they are complete, a strategy that could lead 
to the reduction of the total number of nuclear weapons that we 
maintain in our stockpile today. So it is another important 
point.
    But finally, I would emphasize that we are at a, I think, 
appropriately characterized earlier, a tipping point with 
regard to sustaining our nuclear stockpile deterrent for the 
future.
    And although it is safe, secure, and reliable today, what 
we have to be thinking about is what investments we need to 
make today to ensure that it will be safe, secure, and reliable 
in 2020, 2030, 2040 and beyond, because it will be required in 
that time period. And these weapons do support the safety of 
Americans as well as the safety of others throughout the world.
    Mrs. Davis. I think that people are looking to understand 
if there aren't some savings as well that we are going to be 
incurring so that, while these are very important facilities 
and the people that we need to keep focused on these issues, 
are there not some significant savings that we should be 
incurring as well?
    Secretary D'Agostino. I would be happy to jump in real 
quick and then Dr. Miller. In fact, this is part of our overall 
plan. It is a plan that is going to take a number of years to 
put in place.
    We want to shift from a Cold War nuclear weapons complex, 
which is where we have been for many years, into what we 
describe as a 21st Century Nuclear Security Enterprise. Much 
smaller, much more focused; get ourselves out of having 
plutonium facilities all over the country and focusing on 
having one good one. Making sure that the material that we have 
around the United States is in one place, in a place where we 
know it can work, and it can work for many decades out into the 
future as General Chilton described.
    Jim. Dr. Miller.
    Dr. Miller. I would just add that, while we look to long-
term savings because of these investments, as Mr. D'Agostino 
said, we are in a situation today where we systematically 
underinvested over the last couple of decades in these 
facilities, some of which date back to the Manhattan Project.
    In order to sustain the stockpile and sustain the other 
nonproliferation and other activities that both Mr. D'Agostino 
and General Chilton have talked about, we really do need to 
increase the investment level for the next coming years.
    Mrs. Davis. Thank you.
    Mr. Spratt. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you all for 
being here. Before I ask my questions I would like to make a 
statement. I am very concerned about some of the issues 
involved in the Nuclear Posture Review. And I have got five 
major problems with it.
    One, it seems to be based on the belief that our example 
will influence the actions of bad actors in a positive way. And 
I believe this has been refuted by recent history. The opposite 
will occur because our actions will be viewed as weakness.
    Number two, writing off nuclear retaliation in cases of 
biological or chemical attack will invite bad actors to put 
resources into these areas and to contemplate exactly these 
kinds of attacks.
    Three, making decisions about what kind of retaliation to 
take based on compliance or not of the Non-Proliferation Treaty 
will put undue importance on legal hair-splitting.
    Four, swearing off all testing of existing nuclear weapons 
and development of new nuclear weapons, even if these 
capabilities only existed in undeveloped form within the 
context of ``calculated ambiguity,'' weakens the nuclear 
umbrella. This will invite development and proliferation of 
nuclear weapons by our allies.
    And fifth, reduction of delivery vehicles to the level 
specified under the NPR will allow no margin for error, such as 
a recall of equipment or platforms based on technological 
problems that may arise. We shouldn't put ourselves in this 
precarious position voluntarily.
    So when I consider these kinds of concerns, it is hard for 
me not to conclude that President Obama's views are dangerous 
and naive. And that is, frankly, where I come down on this, and 
I am very concerned.
    To ask some questions here, I would like to start with 
General Chilton. Number one, General Chilton, is there any way 
that missile defense interceptors could be limited by the 
proposed New START Treaty?
    General Chilton. And Mr. Lamborn, good to see you again, 
and I am happy to take your question. And I am sure Secretary 
Tauscher will correct me 100 percent, but no. There are no 
restrictions in START with regard to our missile defense 
capability.
    Mr. Lamborn. As a follow-up, are there any other missile 
defense systems, either currently deployed or planned, or 
related future technology that could be limited by the New 
START Treaty?
    General Chilton. For missile defense, no, there are none, 
sir. And sir, if I could address one of your questions that is 
right in my wheelhouse is--your concerns, I should say, about 
reduction of vehicles. We looked very carefully and supported 
the negotiations for START as far as vehicle limitations.
    And I can tell you we are very comfortable with the limits 
that have been set, and that we would be able to adequately 
carry out the current deterrence mission that we have been 
given, today and for the foreseeable future, with the limits of 
800 total deployed and non-deployed and 700 deployed. So I am 
comfortable with that.
    Mr. Lamborn. Well, along that line, I am glad to hear your 
reassurances on that, but along that line and for Secretary 
Tauscher also or anyone else, it is true that while the 
President has said we will deMIRV our ICBMs, are the Russians 
required to do so?
    General Chilton. They are not required to do so. We elect 
to do that and I think it is the right thing to do. I think 
deMIRVing our ICBMs will allow us, you know, under the warhead 
limitations, to better utilize the warheads that we will have 
within the warhead limitations.
    At the same time, a single warhead, 450 or whatever the 
number turns out to be ICBMs, still complicates the adversary's 
decision calculus in an adequate fashion, in my view.
    Mr. Lamborn. But isn't this another example of where we are 
taking options off the table for ourselves that, you know, 
needlessly in my view?
    General Chilton. Not in deMIRVing, sir, because we still 
will retain the capability to reMIRV should that be required. 
And that is an important capability to retain to protect 
against both a technological failure, say, in a submarine 
weapon or a geopolitical change that would require us to add 
more weapons to our delivery vehicles.
    So it is absolutely important, and was retained, the 
ability to reMIRV should we decide we need to do that.
    Mr. Lamborn. Okay. Well, thank you for that. For anyone, 
Secretary, or anyone else, the NPR suggests that increased 
missile defenses and conventional forces will strengthen U.S. 
deterrence as nuclear forces decrease. However, the Russians 
believe that as nuclear forces decrease, missile defense 
becomes more of a concern--if I could finish that question, Mr. 
Chairman?
    Mr. Spratt. Finish quickly, and then we will move along.
    Mr. Lamborn. Okay. Does this seem to be contradictory and 
how do we resolve that? Thank you.
    Secretary Tauscher. Well, I don't think it is 
contradictory. The Russians have made clear that they are very 
concerned about their strategic balance and that their ability 
to rely on their nuclear weapons force. And they have a 
different orientation between their nuclear and conventional 
forces than we do. Some might say a dependence on them.
    So what we have made clear in the START agreement is that 
while there is an interrelationship between strategic offensive 
and defensive forces, there are no constraints against our 
missile defense forces, either already deployed or planned.
    And, you know, we made it also clear that our missile 
defense forces are not targeting the Russians. We have made 
that clear, and we will consistently make that clear. But, you 
know, I am happy to have a conversation with you, Mr. Lamborn, 
as a sidebar, as to why we are not relying on our own good 
example only to persuade people.
    We are not trying to persuade those that, apparently, 
cannot be persuaded, like Iran and North Korea, not to have 
nuclear weapons. We are trying to persuade all those other 
countries that for decades have not had nuclear weapons, that 
you don't have to have nuclear weapons to be safe.
    And that is why, you know, it is not legal hair-splitting 
to rely on the Non-Proliferation Treaty. It is very important 
for us to have a strong Non-Proliferation Treaty. It has kept 
us at a limited number of nuclear weapons states for decades.
    Mr. Spratt. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. I want to thank the 
witnesses for the historic work that you are engaged in. And 
you know, listening to some of the questions about how this 
document somehow weakens our defense systems or takes options 
away or reduces vehicles, when I read it--and Mr. Taylor's 
questions sort of alluded to it--I mean, the fact of the matter 
is that the commitments that are being suggested in this 
document are going to create huge budget challenges for future 
Congresses. And coming from Connecticut, I mean, obviously, 
where submarines are a big deal, the commitment to SSBNs in the 
future is a perfect example of that. And the language could not 
be more adamant about the fact that our country should--to 
maintain an at-sea presence for the long term, the United 
States must continue development of a follow-on to the Ohio-
class submarine. I mean, that is pretty strong language.
    General, I don't know if you want to just elaborate why the 
document is so forceful in making that recommendation?
    General Chilton. Well, sir, I think we--throughout the 
process the requirements for sustaining an adequate deterrence 
for today and for the foreseeable future were looked at. And as 
a result of that was a revalidation of the need for the triad 
of forces that we have today.
    Certainly, the submarines are a key element of that and, 
certainly, our Ohio-class, we know, will time out at a time 
certain in the late 2020s. I would also add that there is a 
commitment to sustain the Minuteman III through 2030 and to 
look at follow-on options to it, as well as a commitment to the 
long-range bomber.
    And so I think they are very strong and they are there 
because they are needed, and I would defer to Dr. Miller from a 
policy perspective on any other rationale.
    Dr. Miller. I just second what General Chilton said and 
note that our strategic submarines are the most highly 
survivable element of our nuclear force posture. And we intend 
to make the investments to ensure that that is true for the 
indefinite future.
    Mr. Courtney. And given the fact that, as Mr. Taylor 
indicated, though, I mean these are big price tags that are 
carried with the construction of these vessels which, at this 
point, the guesstimate at Seapower Committee was about $6 
billion a copy. And the fact that it, again, it is a survivable 
deterrence unsurpassed, really, by any other part of the triad.
    I mean, questions have been raised about whether or not we 
need to, sort of, move that investment into its own sort of 
budget place, a la the missile defense programs in the past. 
And because the pressure it is going to put on other 
shipbuilding programs, which Chairman Taylor is going to have 
to juggle, is going to be pretty daunting in the future.
    And I am just sort of throwing that out. I am not really 
expecting a response. I don't know if the Under Secretary, I 
know she has experience with that system, how it worked for 
missile defense, but there is an interest level certainly, in 
this committee, about not allowing, again, unnecessary 
investment in Ohio-class to really end up damaging the overall 
fleet size.
    The other question I just was hoping to spend a minute on 
was, the NPR states that ``China's nuclear arsenal remains much 
smaller than the arsenals of Russia and the United States, but 
lack of transparency raises questions about China's future 
strategic intentions.''
    And Secretary Tauscher, I don't know if you wanted to, sort 
of, comment in terms of, you know, the conversations have 
really not been engaged at the same intensity with China as it 
has been with Russia. And how do you sort of see that given the 
NPR's, sort of, editorial comment there?
    Secretary Tauscher. Well, we engage with our Chinese 
counterparts. I actually met with my Chinese counterpart this 
morning on many issues on a day-to-day basis. I was impressed 
that President Hu came to the Nuclear Security Summit 
yesterday, and he and President Obama had a private meeting.
    You know, I think what is important is that the nuclear 
weapons states, those declared five, the P5, that the United 
States and Russia still have 90 percent of the world's nuclear 
weapons and the success of the New START Treaty is a very 
important one. But we certainly can't stop here.
    But we do have to work with our allies, because each of 
them has a different force posture and a different strategic 
vision and a different set of roles and declaratory policy for 
their nuclear weapons. And these are issues that, in the 
interagency, we work very strongly, including with our military 
counterparts like General Chilton and Admiral Mullen.
    So I think that what we want to do, and I think the case in 
the NPR where we made those statements about China is one where 
we are making clear that we want more transparency and we want 
more verifiability. And we want to have more engagement as to 
those confidence building measures that will reassure not only 
the nuclear powers, but also the region and other people, 
exactly what China is doing.
    Mr. Spratt. Mr. Bishop.
    Mr. Bishop. Thank you. Specifically to Mr. Miller and 
General Chilton, everyone has been talking about the broader 
picture. I am going to go in the weeds of this manual with you 
for just a second, specifically about the ICBM force and the 
Minuteman III sustainment concept.
    Page 23 of the report it says, ``The [Department of 
Defense] will continue the Minuteman III Life Extension Program 
with the aim of keeping the fleet in service to 2030, as 
mandated by Congress. Although a decision on [any] follow-on 
ICBM is not needed for several years, studies to inform the 
decision are needed now.''
    Now, the Minuteman III Propulsion Replacement Program (PRP) 
was concluded last year. And last year, also, the Air Force 
recognized that there needs to be a warm line sustainment for 
those solid rocket motors, for example, and other parts of 
that.
    That is why I have some concern, still, within the budget 
there is money set aside for three solid rocket motor booster 
sets per year, when the industrial base says six is the minimum 
they need to maintain a warm line. And for fiscal year 2013 and 
on, there is zero dollars for any kind of sustainment for that 
program if we are going to go until 2030.
    Assistant Secretary Flournoy assured us that this issue 
would be addressed in the Nuclear Posture Review. So I want to 
ask you, I think, four questions; three specific to this area. 
So let me give you all three of those first.
    I would like either of you to elaborate what you exactly 
mean by the phrase ``Life Extension Program,'' because that is 
a confusing terminology. Does that, indeed, mean that the 
Propulsion Replacement Program will exist where the warm line 
will be maintained that you will be concerned about the 
maintenance of an industrial base to do that, especially in 
view of the three, six, and zero numbers that I mentioned 
earlier?
    Number two, I want you specifically to talk about the 
booster set concept and zero and years to come. Is there any 
kind of recommendation of any kind of particular sustainment 
program that gives a specific number for those Minuteman III 
booster sets to make sure that the warm line is viable?
    And the third one relates to it as well. As you know, the 
President and National Aeronautics and Space Administration 
(NASA) has suggested that the Ares rocket and the Constellation 
program be discontinued. And that there are indeed dire 
impacts, both on the space and defense side, if that were to go 
through. The Augustine Commission on space recommended that 
that was a serious issue and needed to be addressed ahead of 
time. Obviously, NASA failed to do that.
    So the question I have is, how we are planning for the 
future? Both Secretary Carter administered that there is an 
industrial base problem if, indeed, Ares III is canceled, or 
even slowed down. General Kehler said in an article that was 
published that he was not comfortable with the direction we 
were going.
    Secretary Payton asked for a study, but in page 23 he said, 
``You will not have the capability of considering future ICBM 
options that are involved with large scale solid rocket 
propulsion systems if this capability is gone.'' So I would 
like to know where you are moving in conjunction with what NASA 
may do.
    And I will give one final one, maybe for Mrs. Tauscher or 
somebody up there, which simply means--this is the broader 
picture one, if you guys get done with the weeds first--you 
know, in our nuclear umbrella that we have, there are at least 
30 countries that are depending on our assistance to provide 
deterrence for them.
    As we ramp our deterrence down, what impact does it have on 
theirs and their credibility and their faith and what they may 
actually try to move forward? But Mr. Miller, General Chilton, 
if you could go to the weed issues first, I would be very much 
appreciative.
    General Chilton. Sure, Congressman, let me take a whack at 
your concerns with regard to solid rocket motors. First of all, 
the language for investment in Life Extension Program, I think, 
is a commitment to the Congressional direction to make sure the 
Minuteman III is sustainable through 2030.
    The PRP, Guidance Replacement Program, the Single Reentry 
Vehicle program, et cetera, address the missile itself, but 
there was other things that needed to be addressed that weren't 
fully funded to include support equipment, test equipment, et 
cetera, to make sure that weapon system is viable. So that is 
my understanding of what that language speaks to.
    There are two different philosophies on producing solid 
rocket missiles between the Navy and the Air Force. The Air 
Force concept was to build them all once, all that you need, 
including your test assets, and stop. And the Navy's was to 
continue a warm production line of D-5s, which they do today.
    That, as an issue, was not really brought up as far as 
sustaining the technology, I think, until the realization that 
Ares was going to go away. Well, as of now, the questions are 
starting to be asked--and I am one of the ones asking the 
questions--is do we have enough investment in the industrial 
base to sustain that critical capability to make large solid 
rocket motors, large solid rocket missiles?
    And it is a unique capability. It is one the United States 
knows how to do today, but one we want to make sure we preserve 
for the future because it is critical for our defense.
    And so I think you are asking some excellent questions 
about, what is the right amount do we invest in sustaining that 
industrial base? Secretary Carter and AT&L are looking at that, 
and I would expect them to bring forward answers to that in the 
fiscal year 2012 that is----
    Mr. Bishop. Because I have two seconds, let me just 
interrupt. And I appreciate your enunciation of what the issue 
is. I would hope it would have been answered in this particular 
document. We still have to go forward. Maybe deciding on what 
NASA actually ultimately aims to do will have an impact on the 
military side. And for the other question I will submit it in 
writing for the record.
    General Chilton. Yes.
    Mr. Bishop. Thank you.
    Secretary Tauscher. Thank you.
    General Chilton. Thank you, sir.
    Mr. Bishop. Thank you very much.
    Mr. Spratt. Thank you, Mr. Bishop.
    Mr. Langevin from Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman and I want to thank 
our panel for the outstanding work that you have all done on 
the NPR. And I thank you for the periodic updates that you have 
been giving me along the way to--it certainly gave me 
confidence that we are on track and this is being done 
effectively.
    Let me just say, in my opinion, the Nuclear Posture Review 
offers a clear plan for focusing on nuclear policy on the 
gravest threats to our security. It is the risk that nuclear 
weapons might spread to other countries or to terrorists.
    Along with new START agreement, the NPR, I believe, will 
help increase U.S. leverage in pressing for the strength of 
nonproliferation measures at the NPT, our Review Conference in 
May, and beyond. And at the same time the NPR endorsed our 
Congressional plan for managing the safety, security, and 
reliability or effectiveness, if you will, of our nuclear 
weapons.
    It clearly seeks to establish a consensus on nuclear policy 
and endorses the revitalizing the nation's Nuclear Security 
Enterprise, too. And I quote Vice President Biden and ``reverse 
the last decades' dangerous decline.''
    The New START Treaty establishes a legally binding and 
state-of-the-art verification process that allows us to track 
Russia's nuclear activities and verify that they are complying 
with their treaty obligations. And these verification measures, 
I believe, will support U.S. intelligence and insight into 
Russia's nuclear capability.
    The treaty also establishes a significantly lower, legally 
binding verifiable limits on deployed strategic warhead levels 
not seen, really, since the days of the Truman and Eisenhower 
Administrations. And this reduction and the limit of deployed 
and strategic nuclear weapons increases stability, transparency 
and predictability.
    So, I just want to say that I applaud all of you for your 
outstanding work to increase U.S. security and thank you for 
your statements and your commitment to safeguarding national 
security. I know for many of you this has been a lifelong 
commitment and interest.
    Specifically to the NPR, I know we have talked about some 
of these issues today already, but my first question is for 
Secretary D'Agostino. As you know, and as we have heard today, 
there is much, really, confusion about what constitutes a new 
nuclear weapon. And so could we for, you know, for the record, 
for further clarification, would you provide the committee with 
your views of this issue?
    And as a follow up, General Chilton, could you discuss this 
issue from the perspective of military capabilities; 
specifically, how can we be sure that the stockpile maintenance 
work won't result in new military capabilities? And, in fact, 
General, for the record, do you need new military capabilities?
    Secretary D'Agostino. Thank you, sir. I would be glad to. I 
think, in my view, a new nuclear weapon is a nuclear warhead 
that is not based on previously tested designs. I mean, this is 
a warhead that doesn't have a test pedigree, that takes us into 
an area, a technical regime that drives us into some unknown 
areas.
    We may have some good theoretical reasons why it might 
work, but it is not based on previously tested designs. Or it 
is a warhead that addresses a new military capability. Right 
now, the Stockpile Management Plan provides this guidance of 
not adding new military capabilities.
    We are consistent with that with what Congress had asked 
for. You know, an example might be an enhanced electromagnetic 
pulse (EMP) device, for example. It is a new capability. It is 
not a capability that we currently have in our stockpile, but 
it adds to it.
    In this thinking, discussion about new nuclear weapons 
versus not new nuclear weapons, we are very consistent, I 
believe, with the 2003 National Defense Authorization Act, 
which specifically excludes, when it discusses this concept of 
new or not, and says ``life extension doesn't fall into this 
category.''
    Because what we are trying to do is extending the life and 
maintain the capabilities that we have using, that whole test 
base that we have. So, extending the life of an existing 
warhead, and maintaining that military capability, does not 
fall into that category.
    Mr. Langevin. Very good.
    General.
    General Chilton. And I would echo Secretary D'Agostino's 
point that a new capability would be like a new EMP-focused 
bomb, or a neutron bomb, or some large increase in yield, none 
of which we need to meet our deterrent capabilities today.
    I agree with you that the word ``new'' is one that has been 
debated a lot. And at some extreme, someone would call a new 
bomb one that we painted a different color. But that is not 
what we are talking about here. We are talking about new 
military capabilities.
    And I am really encouraged by the language in the NPR that 
allows refurbishment, reuse, and replacement to be studied by 
our best and brightest engineers. To be put as options on the 
table for consideration to do one really important thing: to 
ensure the safety, security, and reliability of the stockpile 
for future generations. And that is what is really important 
here.
    I think it would be a mistake to say ``you can't think 
about these solutions.'' We want to have all the solutions on 
the table to be examined and decided upon. And those decisions 
about how we go forward in each weapon will be voted upon by 
both the President and, of course, this body, who controls the 
funding for them. So I believe there will be adequate 
oversight, certainly, in whatever is brought forward as a 
recommendation.
    And one final point, the point on previously designed 
components, are pretty important. The NNSA and the laboratories 
have a great storage of test data from previously designed 
nuclear components.
    And those need to be the ones that we look at as we look at 
replacement options, because we don't want to have to go off 
into areas where we might argue for--some might argue for a 
test.
    So that is an important point as we go forward, is that we 
make sure the nuclear components are based on previously tested 
designs. Thank you.
    Mr. Langevin. Thank you.
    Mr. Spratt. All right, thank you, General.
    Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman, and thank all of you 
for being here. General Chilton, always good to see you, sir. 
And Secretary Tauscher, thank you. It is good to see you again. 
And I extend my appreciation to the other two gentlemen.
    Secretary Miller, I, you know, in earlier testimony you 
spoke of the strategic ambiguity. And it occurs to me that the 
time-honored purpose for strategic ambiguity was really of a 
cautionary note to our enemies. It was to suggest that we might 
do something more than they realize if they proceed to test or 
to attack us.
    And it appears to me that the new policy that you are 
advocating here is really one of foreclosing certain options 
and of going in the exact opposite direction, perhaps 
emboldening our enemies.
    The concern I have there is that if there is some type of 
incursion or some type of where an enemy, being emboldened, 
might be a little more aggressive than usual, that that 
includes the possibility of that escalating, and even 
increasing a larger conflict. So could you speak to that?
    Dr. Miller. Yes. With respect to calculated ambiguity or 
deliberate ambiguity, there is a reduction in that in this 
Nuclear Posture Review, specifically with respect to non-
nuclear weapons states.
    The United States has said since 1978 that we would not use 
or threaten to use nuclear weapons against non-nuclear weapons 
states. And what this Nuclear Posture Review does is remove 
that ambiguity.
    It also significantly reduces ambiguity about the nature of 
our response, and that is that it would be devastating 
conventional military response to any use of chemical or 
biological weapons by a non-nuclear weapons state, and that the 
leadership would be held accountable--both the military and 
political leadership.
    With respect to nuclear weapons states, essentially the 
same degree of ambiguity is present today as it was prior to 
this. And finally, with respect to those states, Iran and North 
Korea in particular, that are not in compliance with their 
nuclear nonproliferation obligations, I believe the ambiguity 
has been reduced. And as Secretary Gates said, we have made 
clear that all options are on the table.
    Mr. Franks. Well, related to Iran, of course, you know, it 
occurs to me that we are missing, probably, the major rogue 
elephant, as it were, in the room. The fact is, if Iran gains 
nuclear capability all efforts to contain nuclear proliferation 
are essentially dead.
    You know, the Iranian president himself, Ahmadinejad, has 
stated that, if gained this capability that they would supply 
this to other Islamic nations ``according to their need.'' And 
it just occurs to me that so much of our focus needs to be 
there.
    I have two little children, and I don't want to see them 
face nuclear terrorism, but I am absolutely convinced a nuclear 
Iran means exactly that.
    That nuclear terrorism is loosed upon the world and it just 
astonishes me that this Administration doesn't seem to be 
focusing on that to the degree that they should. You mentioned 
earlier that deterrent was a combination of capability and 
credibility.
    If you are an Iranian--if you are the Iranian president 
right now and you see us reducing our capability, you can't cut 
the equation any other way than that, regardless if we still 
have sufficient capability perhaps, but we are reducing our 
capability.
    And if you are the Iranian president and you look at our 
posture towards North Korea and this President has made some 
strong statements toward North Korea in the past, and those 
have not resulted in any demonstrable action on our part. And 
so it occurs to me that our credibility has been diminished as 
well with Iran.
    So let me just ask you, what are we doing now, demonstrably 
and specifically, to prevent Iran from gaining a nuclear 
capability?
    Dr. Miller. Sir, let me answer in three parts, and others 
may want to join in as well. First, this Nuclear Posture Review 
did put nuclear nonproliferation and combating the possibility 
of nuclear terrorism at the top of the agenda. And that is a 
principal reason why you see some of the policy changes that we 
have talked about.
    Mr. Franks. But it essentially ignores the most dangerous 
terrorist state in the world in that regard.
    Dr. Miller. Second, with respect to the Negative Security 
Assurance, Iran is not subject to that assurance because they 
are not in compliance with their nonproliferation obligations 
and, as Secretary Gates has said, and as I would like to make 
clear, that means that all options are on the table with 
respect to Iran.
    And if they wish to position themselves so that they are 
subject to that assurance, they need to make significant steps 
to terminate their nuclear activities in a verifiable way and 
subject themselves to the associated inspections.
    And the third element, I would say, which we could spend 
some time on is that the United States is currently working 
hard to get strong sanctions in place on Iran and to press the 
international community, including at the summit, working with 
the Russians and the Chinese, to encourage them in as clear a 
way as possible, to agree to strong sanctions on Iran in order 
to push it to shift its policy and to meet its nonproliferation 
obligations.
    Mr. Franks. Well, thank you, Mr. Chairman. My time is up. 
I----
    Secretary Tauscher. Mr. Chairman, if I could just make 
clear that this Administration is using every one of its arrows 
in its quiver to deter Iran from acquiring nuclear weapons. It 
is as frustrated as the previous Administration was.
    But I will say that we have had tremendous success, most 
recently, in persuading members of the P5, the European Union, 
and other countries to work with us to deter Iran, to persuade 
them that having nuclear weapons is not something that we will 
sustain.
    And I think that the President has worked very hard on 
this. It is a difficult situation because of the isolation of 
Iran and its leadership. But I think that both on North Korea 
and Iran this Administration has worked very hard to make clear 
that their nuclear ambitions are not in line with our plans for 
them.
    Mr. Franks. Well, thank you, Mr. Chairman. May I just 
suggest, Mr. Chairman, as difficult as it is to deal with Iran 
now, it will be much more difficult if we do not succeed in 
preventing them in gaining nuclear weapons.
    The Chairman [presiding]. As I understand, there are two 
more members that wish to ask questions, but let me ask the 
same question I asked the General of Secretary Tauscher. Does 
the Nuclear Posture Review make us any safer?
    Secretary Tauscher. I believe it does, Mr. Chairman, 
because the Nuclear Posture Review clarifies our Negative 
Security Assurance. It makes clear to non-nuclear weapons 
states that compliance with their NPT obligations, that they 
are not threatened by our nuclear forces. Secondarily, it makes 
clear to countries that are not in compliance with their NPT 
obligations, like North Korea and Iran, that we would use 
nuclear weapons against them.
    And I think it generally puts in balance what is a very 
strong nuclear and conventional threat that the United States 
has had for many years. Keep in mind that we haven't used 
nuclear weapons in over 65 years. There is a very high bar that 
every Commander-in-Chief would have to consider to use nuclear 
weapons.
    But we have conventional weapons and a military force 
second to none, and it has kept us in relative peace and 
security other than the asymmetrical threats that we faced 
after September 11th, against allies and against other state 
actors. It has kept us in relative peace and security for many 
decades.
    So I think that the Administration has moved forward with a 
Nuclear Posture Review that is much more clarifying, much more 
significant in its commitments to non-nuclear weapons states in 
compliance with NPT, to strengthen the NPT. And I think it does 
have a very strong nonproliferation piece which, in the end, 
the President believes will make us all safer.
    The Chairman. Thank you very much.
    Mr. Heinrich.
    Mr. Heinrich. Thank you, Mr. Chairman, and welcome to all 
of you. I want to start just by commending the Administration 
by moving us beyond the Cold War mentality that has gripped our 
deterrent for a long time. We are two decades, now, beyond that 
in terms of the reality on the ground.
    And this begins to create a situation that is much more in 
line with the threats that we face today. And I also want to 
commend the Administration on really walking the walk versus 
the kind of lip service we have received in the past when it 
comes to investing in our infrastructure and, more importantly, 
our personnel. I really appreciate that shift.
    I want to get fairly specific. First off, Secretary 
D'Agostino, I wanted to ask you what are the implications for 
our national security of not having the B61 Life Extension 
Program completed by 2017?
    And how confident are you that the B61 Life Extension 
Program will be ready to deliver finished systems required to 
synchronize the weapon with the arrival of the new F-35 as a 
delivery vehicle?
    Secretary D'Agostino. Mr. Heinrich, the B61 bomb is, as 
General Chilton has noted previously in testimony and in other 
discussion, is one of our oldest warheads. It is in need of 
attention. It has got systems, electronic systems that need 
specific attention associated with, you know, vacuum tubes and 
the like. It needs some specific work--I'd prefer not to get 
into the technical details here, in an open session. We would 
be glad to provide you the details.
    But it is very important for us to get started to work on 
that warhead itself, or on that bomb. Various--all aspects of 
it need a significant amount of attention. The other important 
thing, frankly, on the B61 in addition to our desire to satisfy 
the military requirements that I have asked General Chilton 
talk to, the year 2017 is the date you heard me mention in my 
opening remarks.
    That date is important. Because of our infrastructure we 
want to time in the studies that typically happen at 
laboratories and the work that happened at laboratories as 
opposed to the actual production work that has to happen.
    And the first production unit of 2017 fits in very nicely 
from our ability to layer in the work that we are currently 
doing right now on the W76 warhead, which is in its production 
stage, with the work when that work tapers off in 2017, 
entering into the production stage on the B61 bomb. It 
coincides nicely with the requirements of the Defense 
Department as well.
    General Chilton. Thanks. And if I could add to that, sir, a 
lot of folks are linking 2017 to F-35. We need the B61 in first 
production in 2017, regardless of the F-35, because the B61 
also is a weapon that is used by the B-2, by our strategic 
deterrent. And so it is an important weapon, also, to be part 
of the F-35 as the dual capable aircraft strategy goes forward.
    But any slip in the F-35 program should not say ``well, we 
can take risk in the B61 program.'' We need to be on schedule 
and get first production unit going. Complete W76, B61, both 
nuclear and non-nuclear parts of that, so that then we can move 
on to our next element of the stockpile that needs to be 
addressed, the W78.
    And I would close by saying I am so encouraged by this NPR 
and the investment and the strategy and the latitude given here 
to the labs to address this particular weapon. Because it will 
be the model, I think, the first model for adding increased 
security and safety and reliability to the stockpile.
    The W76 was purely a refurbishment. No added safety or 
security. No added reliability. The B61 will be an opportunity 
for this model to be put in place that will then be carried on 
throughout the rest of the stockpile.
    Mr. Heinrich. Thank you, General. I couldn't agree more 
with both of those points. So I appreciate you clarifying, 
especially the aircraft issue and the kind of improvements that 
can be made as we move forward to really increase safety and 
reliability.
    Secretary Tauscher, and I am still getting used to you 
being down there as opposed to up there, but we heard a little 
bit earlier about moral leadership, as if that was the only 
outcome of the kind of leadership we have seen from the 
Administration with respect to New START and the NPR.
    I want to ask you a little bit more about pragmatic 
outcomes. And I wonder if you can talk a little bit about the 
direct impact that New START seems to already be having on how 
Russia and China view issues like sanctions with some of the 
countries that are out, who are not complying with their 
international obligations?
    Secretary Tauscher. Thank you, Mr. Congressman. I think 
when President Obama came into office, he had a different point 
of view on engagement: to be tough but at the same time, as he 
said, reach out your hand, but if you come back with a fist we 
will not respond nicely.
    And in both the case of Russia specifically, we had the 
inconvenience of a START Treaty that was going to expire, no 
matter what we did, on December 5th. And a little less than 10 
months after the President came into office.
    So the effort by the President and Secretary Clinton to 
restart and reset the relationship with the Russians was 
fundamentally important. And to get the atmosphere right to 
begin to get the START Treaty negotiated.
    The President made clear that even though we had this 
inconvenient date of the START Treaty expiring that he didn't 
want any treaty on December 5th. He wanted to make sure that we 
took the time to get a treaty that was going to not only create 
more stability in the relationship, but one that was going to 
serve the American people and the people of the Russian 
Federation for the 10 years of the life of the treaty, and also 
help us make our case in our narrative for the dangers of 
nuclear weapons. And while nuclear weapons still have a very 
strong place in our deterrent posture and force posture, that 
the President wants us to, in the role as part of the Nuclear 
Posture Review, lessen the dependence of the United States on 
nuclear weapons because we still have the strongest 
conventional forces and weaponry in the world and the best 
military in the world.
    And we have not used nuclear weapons in 65 years. And the 
bar to use them is extremely high. And we may not have a 
circumstance where that test to use a nuclear weapon is 
satisfied by the time we think we have to make some decisions.
    So it is partly to have the moral leadership to have a very 
strong Non-Proliferation Treaty, which the President is 
committed to, to make sure that countries that, in the past, 
over the last decades, have not had nuclear weapons because we 
either extended our deterrence to them or because they had 
decided not to--don't decide to have nuclear weapons and are 
not reliant on them.
    Mr. Heinrich. Thank you, Chairman.
    The Chairman. Thank you.
    Mr. Lamborn for a question. Then we go to Mr. Langevin.
    Mr. Lamborn. Thank you, Mr. Chairman. And I listened with 
great interest to your earlier remarks about a perceived 
connection between missile defense and the New START Treaty. 
And I understand that there is no such intention on our part. 
And I have read your comments in the press very carefully 
previously, Secretary Tauscher, and I accept and believe that 
that is our intention.
    Secretary Tauscher. Thank you.
    Mr. Lamborn. So I have no question about that. I am 
reassured about that. And General Chilton, I am reassured by 
what you said about the language of the treaty and that there 
is no platforms or missile defense weapons that would be 
connected.
    But my question and my concern is what is going on in the 
minds of the Russians? And let me read to you a quote from an 
official Kremlin statement regarding New START. New START ``can 
operate and be viable only if the United States of America 
refrains from developing its missile defense capabilities, 
quantitatively or qualitatively.''
    So in their mind, there does seem to be a connection. And 
that is my concern. I understand our position and I accept 
that. And there shouldn't be a connection because missile 
defense is defensive, not offensive. And secondly, it is so 
critical to our defense it should not be negotiable.
    But if two parties to a treaty seem to have differing views 
on an essential matter like that, doesn't that potentially set 
up a possible failure of understanding and, therefore, 
implementation? And if you could address that, please, I would 
appreciate it.
    Secretary Tauscher. Congressman Lamborn, I appreciate your 
comments. Let me just say, again, for the record, there is 
nothing in the New START Treaty that constrains any of our 
deployed or planned missile defense systems. Full stop.
    I don't know when that statement was made. I don't know if 
it was made weeks and months ago or whether it was made in the 
last 20 minutes. But I will tell you that the Russians not only 
understand what our Phased, Adaptive Approach is, because it is 
on the Internet. Anybody can understand what it is.
    But every country has, inside of its very complicated 
infrastructure and bureaucracy, folks that, for their own 
reasons, don't like what their allies and friends and treaty 
partners are doing. And everybody has a domestic audience that 
they have to play to at times. And politics is a part of 
everything.
    President Obama has made very clear that this treaty was 
never going to constrain us in any way when it came to 
protecting the American people, our forward deployed troops and 
our allies, specifically about missile defense. And when I was 
in Geneva, part of my job in the negotiating was to make sure 
that that was what the President got in the end of the deal.
    What the Russians say and what certain Russians say, I 
notice that that is not even a comment attributed to anyone. 
You know, it is what it is. But we have every incentive and 
every reason to believe that the Russians are serious about 
maintaining the life of the START Treaty and their commitments 
to it. Certainly in Prague I was very proud to sit and watch 
President Medvedev and President Obama sign the treaty last 
Thursday.
    It is very clear that our relationship, while we don't 
agree with the Russians on everything, we have a much improved 
relationship. It is accruing to the American people and to the 
things that we want to do, including things like Iran and other 
issues.
    This relationship is working for us and we are working 
diligently to make sure that the stability created by a 
positive American-Russian relationship is accruing to our 
friends and allies at the same time.
    So I think I am glad that you are reassured. That is 
certainly our position. But once again, I don't know who this 
Russian was that was quoted. It is not attributed and I don't 
even know when the quote was made.
    But I can assure you they know what our limited missile 
defense systems are. They know what they are constituted to do. 
They know they are not targeted against them, and we are very 
satisfied that we are going to have a good relationship going 
forward in the New START agreement.
    Dr. Miller. If I could add very quickly, the Russians also 
know now what is in our unilateral statement, which was put out 
just a few days ago, which says ``The United States intends to 
continue improving and deploying its missile defense systems in 
order to defend itself against limited attack and as part of 
our collaborative approach to strengthening stability in key 
regions.''
    So, both for homeland defense and for regional missile 
defense, it made absolutely clear that we intend to continue to 
improve our capabilities.
    The Chairman. I thank the gentleman. I wish the members to 
know that tomorrow at our hearing we will begin having the 
junior members of the committee and we work backward in our 
procedural order. And I hope the junior members will arrive on 
time before the gavel starts.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. One of the 
challenges in serving on the committee is that when you are 
dealing with important topics like these to get all your 
questions in in 5 minutes, which is next to impossible.
    But I would--one question I wanted to get to, and I would 
be remiss if I didn't ask of Secretary Tauscher.
    First of all, Ellen, it is great to have you back before 
the committee again, and thank you for your years of work on 
all these issues and your leadership on the Strategic Forces 
Subcommittee that you chaired, and now that I was privileged to 
succeed when you assumed your new role.
    Yesterday, I had the privilege of attending the Nuclear 
Security Summit. And obviously, many positive things have come 
out of that summit already. In particular, I noticed the news 
that the Chinese have pledged to work more closely with us on 
the Iranian issue. And when I met with President Hu yesterday, 
I first expressed my appreciation for his willingness to do 
that.
    Also, in particular, we saw over 47 countries come to come 
together to begin to address threats of nuclear terrorism, 
nuclear proliferation. And from my work both on this committee 
and also on the Intelligence Committee, I certainly share the 
President's concerns about the dangers from loose nuclear 
material and rogue proliferators.
    And I am certainly happy to see this issue take prominence 
in this Administration. I give President Obama high marks in 
his Administration for convening the summit, which is probably 
long overdue and it is such an important topic.
    Secretary Tauscher, can you elaborate on some of the 
commitments from other nations that came from this conference? 
And also, what progress needs to be made before nations 
reconvene in South Korea in 2012?
    Secretary Tauscher. Thank you, Chairman Langevin. It is my 
pleasure to see you again, and congratulations on all your work 
on the Strategic Forces Subcommittee. Yesterday, Monday and 
Tuesday, the President convened 47 heads of state to talk about 
an issue that particularly animates him, which is nuclear 
terrorism.
    And he made very clear that, while much has changed since 
the end of the Cold War, that it is less likely that the United 
States or our allies would be subject to a nuclear attack from 
a big power.
    Unfortunately, countries that are looking to acquire 
nuclear weapons and terrorist organizations that are looking to 
either find material or know-how or technology have increased. 
And that has increased significantly our danger in the United 
States.
    So he brought these 47 heads of state together and there 
was not only a communique that, I think, was very positive in 
the commitment of these 47 heads of state to work together on 
nuclear security and to eliminate nuclear terrorism, but there 
were a number of what we call ``house gifts'' that some of 
these heads of state brought along. Countries like Chile, 
Canada, the Ukraine, and Mexico have agreed, for example, to 
eliminate all of their HEU and to send it to the United States 
and Russia for disposal.
    The United States and Russia were--we seem to be signing 
agreements almost every day these days--signed yesterday the 
Plutonium Disposition Agreement, which Tom knows about. It was 
10 years in the making, had been stalled for many years. But 
this eliminates plutonium that could make 17,000 nuclear 
weapons. The IAEA is going to help us monitor that agreement.
    There were a number of other initiatives going on there, 
and probably one of the anecdotes to the whole conference was 
that, while you had 47 heads of state milling around, and many 
of them brought their foreign ministers and their ambassadors 
and members of their cabinets that deal with nuclear 
nonproliferation issues, there were many side meetings that 
were going on where there was a lot of very good work done.
    And what was very clear while President Obama presided over 
this for a day and a half and made some, I think, very eloquent 
and very forceful statements, what was very clear was that this 
was an issue that these heads of state--most of them non-
nuclear countries--believed was important, but it took the 
United States and President Obama to put this issue in the 
forefront of their minds and to convene them together.
    And the good news is that the ``sherpas''--these are the 
people that managed the process of doing the communique and the 
work product that goes forward--they will continue meeting over 
the next two years.
    And South Koreans have agreed to convene what was meant to 
be one meeting, now will have follow-on in 2012 for the South 
Koreans to convene a similar kind of meeting where the work 
product will be reviewed, and these efforts will continue.
    There were billions of dollars committed by nuclear powers 
to help do cleanups. So I think, overall, it was not only a 
success in the material things that were committed to but, once 
again, this is an issue that the President believes that 
publics and parliaments and, certainly, the American people and 
the Congress need to know more about.
    For too long, these issues have stayed in the background; 
they are very opaque and complicated and complex and sometimes 
people say, ``oh, you know, that is hard to understand. I 
didn't take physics in high school.''
    The truth of the matter is, every American and every person 
in the world needs to know these issues because this is the 
biggest threat we have. And it is a life-changing event if 
something bad should happen.
    And their political will is important because they need to 
tell their Congress or their parliament or their head of state 
that this is important, that they want them to fix these 
issues. They want them to work collaboratively, and they want 
strong international regimes like the Non-Proliferation Treaty 
to be protected.
    So thank you. I was so glad to see you there yesterday, and 
many Members of Congress came, but we all worked hard on it and 
I am glad that it had such a good outcome.
    Mr. Langevin. Okay. Very good.
    Secretary Tauscher. Thank you.
    Mr. Langevin. Again, well, thank you for that answer and to 
all of you, I mean on the panel, thank you for the outstanding 
work you have done on the NPR as well. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. I appreciate the gentleman, and to the 
excellent panel, and we certainly are grateful for your 
testimony, for your hard work and for what you do for our 
country.
    And with that----
    [Whereupon, at 1:09 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 14, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 14, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8230.001
    
    [GRAPHIC] [TIFF OMITTED] T8230.002
    
    [GRAPHIC] [TIFF OMITTED] T8230.003
    
    [GRAPHIC] [TIFF OMITTED] T8230.004
    
    [GRAPHIC] [TIFF OMITTED] T8230.005
    
    [GRAPHIC] [TIFF OMITTED] T8230.006
    
    [GRAPHIC] [TIFF OMITTED] T8230.007
    
    [GRAPHIC] [TIFF OMITTED] T8230.008
    
    [GRAPHIC] [TIFF OMITTED] T8230.009
    
    [GRAPHIC] [TIFF OMITTED] T8230.010
    
    [GRAPHIC] [TIFF OMITTED] T8230.011
    
    [GRAPHIC] [TIFF OMITTED] T8230.012
    
    [GRAPHIC] [TIFF OMITTED] T8230.013
    
    [GRAPHIC] [TIFF OMITTED] T8230.014
    
    [GRAPHIC] [TIFF OMITTED] T8230.015
    
    [GRAPHIC] [TIFF OMITTED] T8230.016
    
    [GRAPHIC] [TIFF OMITTED] T8230.017
    
    [GRAPHIC] [TIFF OMITTED] T8230.018
    
    [GRAPHIC] [TIFF OMITTED] T8230.019
    
    [GRAPHIC] [TIFF OMITTED] T8230.020
    
    [GRAPHIC] [TIFF OMITTED] T8230.021
    
    [GRAPHIC] [TIFF OMITTED] T8230.022
    
    [GRAPHIC] [TIFF OMITTED] T8230.023
    
    [GRAPHIC] [TIFF OMITTED] T8230.024
    
    [GRAPHIC] [TIFF OMITTED] T8230.025
    
    [GRAPHIC] [TIFF OMITTED] T8230.026
    
    [GRAPHIC] [TIFF OMITTED] T8230.027
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 14, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8230.028
    
    [GRAPHIC] [TIFF OMITTED] T8230.029
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 14, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. Secretary Miller, the Administration has repeatedly 
assured the Congress that no limits would be placed on missile defense. 
However, Article 5 of the Treaty appears to restrict the conversion of 
ICBM launchers for use as missile defense silos--as we did with the 
Ground-based Interceptors at Vandenberg--and restrict the conversion of 
submarine tubes to fire missile defense interceptors. Is this correct? 
Why set such limits on missile defense?
    Dr. Miller. The New START Treaty (NST) does not constrain the 
United States from deploying the most effective missile defenses 
possible, nor does the NST add any additional cost or inconvenience to 
our missile defense plans. As the 2010 Ballistic Missile Defense 
Review, our budget submission and projections, and the U.S. unilateral 
statement made in connection with the NST all make clear, the United 
States will continue to improve its missile defenses.
    Article V, Section 3 of the Treaty prohibits the conversion of ICBM 
or SLBM launchers to missile defense launchers and vice versa; that is, 
the conversion of missile defense launchers to launch ICBMs or SLBMs. 
This section also ``grandfathers'' the five former ICBM silos at 
Vandenberg AFB that were converted for use within Ground Based 
Interceptors (GBI) over the past several years. Should the decision be 
made in the future to field additional GBIs, we will already have eight 
extra, unused missile defense silos in the ground at Fort Greely, 
Alaska. In the event that we would need even more missile defense silos 
above and beyond the extra eight, we would build the smaller, much less 
expensive, tailor-made GBI silos rather than perform more expensive 
conversions of existing ICBM silos. Regarding SLBM launchers, the 
Missile Defense Agency examined the concept of launching missile 
defense interceptors from submarines and found it to be not cost-
effective and to present unique operational challenges.
    Mr. Lamborn. I am concerned that the Administration may not fully 
implement its Phased Adaptive Approach (PAA) plans for missile defense 
in Europe, or it may seek to slow down PAA implementation, to avoid 
Russian withdrawal from the Treaty. What types of activities will the 
U.S. avoid to diminish the chances that the Russians will withdraw?
    Dr. Miller. The United States has made clear to Russia, including 
in the unilateral statement released in conjunction with the New START 
Treaty, that U.S. missile defense systems do not and will not threaten 
Russia's nuclear deterrent and that the United States intends to 
continue to deploy improved missile defense systems to defend the U.S. 
homeland from limited attacks and to defend its deployed forces, 
allies, and partners against regional threats. Moreover, the United 
States will not allow a Russian threat to withdraw from the New START 
Treaty to influence any national security matter, including the 
development and deployment of needed missile defense capabilities.
    Mr. Lamborn. Secretary Miller, in your professional opinion what is 
the number of warheads the U.S. needs to meet its nuclear deterrence 
objectives? I have heard discussions of much lower numbers of nuclear 
weapons in the future under a minimum deterrence strategy. Is it 
possible for the U.S. to pursue a minimum deterrence strategy, similar 
to China, with 500 nuclear weapons or less in the future? Has STRATCOM 
performed any force structure analysis based on a minimum deterrence 
strategy?
    Dr. Miller. Since the end of the Cold War, the United States and 
Russia have reduced operationally deployed strategic nuclear weapons by 
approximately 75 percent, but today both retain more operationally 
deployed nuclear weapons than needed for deterrence. The Nuclear 
Posture Review (NPR), with analytical support from USSTRATCOM, examined 
the full range of factors that will allow reductions in U.S. nuclear 
force levels. The NPR team provided this information to the New START 
negotiators to guide negotiation of the recently concluded New START 
Treaty.
    The United States has no plans to pursue a minimum deterrence 
strategy, and no analysis has been conducted by USSTRATCOM or elsewhere 
in DOD to explore such a strategy.
    Mr. Lamborn. Secretary Miller, as nuclear weapons are reduced and 
conventional Prompt Global Strike (PGS) capabilities are developed, to 
what degree can conventional capabilities substitute for nuclear 
capabilities in providing deterrence? What are the limitations?
    Dr. Miller. Conventional Prompt Global Strike (CPGS) capabilities, 
as well as other conventional and missile defense capabilities, are not 
intended to be a substitute for nuclear capabilities in providing 
deterrence against nuclear attack. As long as nuclear weapons exist, 
the U.S. will maintain a safe, secure, and effective nuclear arsenal to 
deter potential adversaries. However, these conventional systems and 
other non-nuclear capabilities may allow the U.S. to fulfill deterrence 
objectives at significantly lower nuclear force levels with reduced 
reliance on nuclear weapons.
    The Administration is currently examining the appropriate mix of 
CPGS capabilities needed to improve our ability to address regional 
threats, without negatively affecting the stability of our strategic 
relationships with Russia or China. Specific recommendations will be 
made in the fiscal year (FY) 2012 Department of Defense budget.
    Mr. Lamborn. General Chilton, in your professional opinion what is 
the number of warheads the U.S. needs to meet its nuclear deterrence 
objectives? I have heard discussions of much lower numbers of nuclear 
weapons in the future under a minimum deterrence strategy. Is it 
possible for the U.S. to pursue a minimum deterrence strategy, similar 
to China, with 500 nuclear weapons or less in the future? Has STRATCOM 
performed any force structure analysis based on a minimum deterrence 
strategy?
    General Chilton. The analysis STRATCOM was requested to perform in 
support of the NPR and New START negotiations focused on our ability to 
meet current employment guidance at various force levels. We were not 
asked to examine the force requirements for a ``minimum deterrence'' 
strategy. Without knowing how ``minimum deterrence strategy'' is 
defined in terms of targeting requirements under various conditions it 
is not possible to answer the question ``how much is enough to deter''?
    Mr. Lamborn. General Chilton, as nuclear weapons are reduced and 
conventional Prompt Global Strike (PGS) capabilities are developed, to 
what degree can conventional capabilities substitute for nuclear 
capabilities in providing deterrence? What are the limitations?
    General Chilton. Conventional Prompt Global Strike capabilities can 
provide the President additional options for striking targets promptly 
at very long ranges without concern over active air defenses. Thus, 
they can contribute to deterrence by helping to convince an adversary 
that we can deny them some of the benefits they might seek by attacking 
us or our allies, and impose costs on them in response to such an 
attack. However, I do not believe that such conventional PGS 
capabilities can effectively substitute for the deterrent effect 
derived from our nuclear forces. Nuclear weapons pose a qualitatively 
different threat than any conventional strike option. The scale, 
duration, and inevitability of nuclear weapons effects have a unique 
deterrent effect, as does the potential for escalation to a large scale 
nuclear exchange. This is why I have repeatedly stated that 
conventional PGS capabilities are not a one-for-one substitute, or even 
a ten-for-one substitute, for nuclear capabilities.
    Mr. Lamborn. Secretary Tauscher, the Administration has repeatedly 
assured the Congress that no limits would be placed on missile defense. 
However, Article 5 of the Treaty appears to restrict the conversion of 
ICBM launchers for use as missile defense silos--as we did with the 
Ground-based Interceptors at Vandenberg--and restrict the conversion of 
submarine tubes to fire missile defense interceptors. Is this correct? 
Why set such limits on missile defense?
    Secretary Tauscher. The New START Treaty does not constrain the 
United States from deploying the most effective missile defenses 
possible, nor does it add any additional cost or inconvenience. Rather, 
the Treaty enables the President to develop the missile defenses needed 
to defend the homeland, our deployed forces abroad, and our allies and 
partners from the threat of ballistic missile attack.
    Indeed, Lt. Gen. Patrick O'Reilly, Director of the Missile Defense 
Agency (MDA), has testified that the New START Treaty places no 
constraints on current and future plans for ballistic missile defense 
development or deployment.
    Lt. Gen. O'Reilly has made clear that the Article V, paragraph 3 
ban on converting ICBM silos to house and launch missile defense 
interceptors does not constrain MDA's plans. In 2002, MDA converted 
ICBM silos to operational silos for launching GBIs because they had not 
yet developed a silo specifically for GBIs at that time. Since then, 
MDA has developed a GBI silo that costs $20M less than converting ICBM 
silos and is easier to protect and maintain. Accordingly, should 
additional missile defense interceptor launchers be needed, we would 
build the smaller, much less expensive, tailor-made ground-based 
interceptor (GBI) silos rather than pursuing the more costly approach 
of converting ICBM silos.
    Article V of the Treaty also prohibits the conversion of existing 
SLBM launchers into missile defense launchers. As Lt. Gen. O'Reilly 
stated in his testimony, MDA has examined the concept of launching 
missile defense interceptors from submarines and found it an 
operationally unattractive and extremely expensive option in part 
because submerged submarines are not easily integrated into our 
nation's missile defense command and control network. In fact, the 
United States already has a very good, significantly growing and proven 
capability for mobile sea-based ballistic missile defense on Aegis-
capable ships, which are not constrained by the New START Treaty.
    The exhibitions provided for in the Seventh Agreed Statement will 
avoid ambiguities from arising with respect to converted ICBM silos 
that now serve as missile defense interceptor launchers at Vandenberg 
AFB, because the United States will be able to demonstrate that such 
launchers are no longer capable of holding and launching ICBMs.
    It is also important to note that this Treaty provides greater 
flexibility for the missile defense program than did the START Treaty 
in several areas. For example, MDA's intermediate-range LV-2 target 
booster system, used in key tests to demonstrate homeland defense 
capabilities and components of the new European Phased Adaptive 
Approach, was accountable under the previous START Treaty because it 
employed the first stage of the now-retired Trident I SLBM. Under New 
START, this missile is not accountable, and MDA will have greater 
flexibility in conducting testing with regard to launch locations, 
telemetry collection, and processing, allowing more efficient and 
realistic testing.
    Mr. Lamborn. I am concerned that the Administration may not fully 
implement its Phased Adaptive Approach (PAA) plans for missile defense 
in Europe, or it may seek to slow down PAA implementation, to avoid 
Russian withdrawal from the Treaty. What types of activities will the 
U.S. avoid to diminish the chances that the Russians will withdraw?
    Secretary Tauscher. None. The United States will take all necessary 
steps to promote stability and foster cooperation while defending 
ourselves, our allies and partners, and our interests. With respect to 
ballistic missile defenses, the United States will continue to develop 
and deploy missile defenses to defend the homeland against the threat 
of limited ballistic missile attack and to defend against regional 
missile threats to U.S. forces, while protecting allies and partners 
and enabling them to defend themselves.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP

    Mr. Bishop. On page 23 of the Nuclear Posture Review Summary, it 
states, ``The DoD will continue the Minuteman III Life Extension 
Program with the aim of keeping the fleet in service to 2030, as 
mandated by Congress. Although a decision on any follow-on ICBM 
development is not needed for several years, studies to inform that 
decision are needed now.''
    The Minuteman III Propulsion Replacement Program (PRP) just 
concluded in calendar year 2009. Last year, as part of the FY 10 
authorization process, the Air Force acknowledged the military 
requirement for a so-called ``warm line'' program to adequately sustain 
the Minuteman III with regard to the solid rocket boosters. For FY 11, 
the Air Force only proposes production of 3 Minuteman III boosters, 
when industry maintains that 6 booster sets are minimally necessary to 
sustain the industrial base. More disturbingly, the Air Force Five Year 
Defense Plan (FYDP) contains $0 funding for Minuteman III Warm Line 
sustainment in FY 13 and beyond.
    At an earlier hearing this year, the Undersecretary of Defense for 
Policy, Ms. Michele Flournoy, assured me that the large scale solid 
rocket motor industrial base issue would be addressed by this 
Administration more fully in the NPR. However, in reviewing the 
document made available to me, I cannot determine that it has been 
addressed at all.
    Please explain what is meant exactly by the phrase ``DoD will 
continue the Minuteman III Life Extension Program.''
    Dr. Miller. The phrase refers to the requirements to sustain the 
Minuteman III (MM III) weapon system through 2030 in accordance with 
direction in the National Defense Authorization Act for FY2007. The 
U.S. Air Force is fully committed to achieving that objective and has 
budgeted over $1.3B in investments through the FYDP (FY10-FY15) to 
sustain the MM III weapon system through 2030. Minuteman Solid Rocket 
Motor (SRM) Warm Line terminates in FY2012 with funding provided only 
for closeout/environmental cleanup. OSD plans to provide a report to 
Congress on SRM industrial base sustainment in approximately September, 
2010.
    Mr. Bishop. Does the NPR address what number of Minuteman III 
booster sets are minimally necessary to sustain a viable warm-line 
sustainment program?
    Dr. Miller. No. The 2010 NPR report does not address quantities of 
Minuteman III boosters necessary to sustain a viable warm-line 
sustainment program. It was decided to address this issue via an 
interagency task force that includes representation from DoD (the 
Office of the Secretary of Defense, Army, Navy, Air Force, and Missile 
Defense Agency) and NASA. This task force will provide solid rocket 
motor industrial base sustainment recommendations to the Secretary of 
Defense for a subsequent report to Congress in approximately September, 
2010.
    Mr. Bishop. What specific impacts would termination of NASA's Ares 
1 and Ares 5 rocket motors have on the defense solid rocket motor 
industrial base?
    Dr. Miller. Cancellation of the NASA Constellation program would 
impact DoD programs that use Solid Rocket Motors (SRMs) to include 
strategic and tactical missiles, missile defense systems, and solid 
booster programs for our space launch platforms. These impacts could 
include cost increases, as component suppliers may have higher costs 
associated with lower production rates. However, reduction in excess 
production capacity may, in fact, ultimately create savings for the 
Department over the longer term.
    Section 1078 of the National Defense Authorization Act for FY2010 
directed the Secretary of Defense to ``establish a plan to sustain the 
solid rocket motor industrial base, including the ability to maintain 
and sustain currently deployed strategic and missile defense systems 
and to maintain an intellectual and engineering capacity to support 
next generation motors, as needed.'' The Under Secretary of Defense for 
Acquisition, Technology and Logistics established an interagency task 
force, including representation from DoD (the Office of the Secretary 
of Defense, Army, Navy, Air Force, and Missile Defense Agency) and 
NASA, to address this issue. This task force will provide solid rocket 
motor industrial base sustainment recommendations to the Secretary of 
Defense for a Subsequent report to Congress in approximately September, 
2010.
    Mr. Bishop. If NASA's proposal to terminate Ares 1 and Ares 5 is 
approved by Congress, is the DoD confident that the solid rocket motor 
industrial base will survive and be sufficiently robust to allow for 
future ICBM modernization options involving solid rocket motors, and 
what evidence would lead the DoD to having such an assurance?
    Dr. Miller. If the current Minuteman III (MM III) solid rocket 
motor (SRM) production capability is allowed to lapse, any requirement 
for follow-on MM III SRM production would include the time and costs 
required to reinstate a MM III SRM production capability.
    Section 1078 of the National Defense Authorization Act for FY2010, 
directed the Secretary of Defense to ``establish a plan to sustain the 
solid rocket motor industrial base, including the ability to maintain 
and sustain currently deployed strategic and missile defense systems 
and to maintain an intellectual and engineering capacity to support 
next generation motors, as needed.'' The Under Secretary of Defense for 
Acquisition, Technology and Logistics established an interagency task 
force, including representation from DoD (the Office of the Secretary 
of Defense, Army, Navy, Air Force, and Missile Defense Agency) and 
NASA, to address this issue. This task force will provide solid rocket 
motor industrial base sustainment recommendations to the Secretary of 
Defense for a Subsequent report to Congress in approximately September, 
2010.
    Mr. Bishop. Is retention of a healthy large-scale solid rocket 
motor industrial base of vital strategic importance to the Defense 
Department of the United States?
    Dr. Miller. DoD relies heavily on large solid rocket motors (SRMs) 
to provide the propulsion for our strategic systems, missile defense 
programs, and space launch. DoD relies upon SRMs for its strategic 
missiles for three primary reasons: rapid employment capability, long-
term storability, and safety. The Department is evaluating its current 
research development and production programs to determine how to adjust 
the Department's SRM programs to the changing large SRM critical skills 
and subtier supplier base. The Department is committed to sustaining an 
adequate SRM industrial base to support both our strategic and tactical 
needs.
    Section 1078 of the National Defense Authorization Act for FY2010, 
directed the Secretary of Defense to ``establish a plan to sustain the 
solid rocket motor industrial base, including the ability to maintain 
and sustain currently deployed strategic and missile defense systems 
and to maintain an intellectual and engineering capacity to support 
next generation motors, as needed.'' The Under Secretary of Defense for 
Acquisition, Technology and Logistics established an interagency task 
force, including representation from DoD (the Office of the Secretary 
of Defense, Army, Navy, Air Force, and Missile Defense Agency) and 
NASA, to address this issue. This task force will provide solid rocket 
motor industrial base sustainment recommendations to the Secretary of 
Defense for a Subsequent report to Congress in approximately September, 
2010.
    Mr. Bishop. Approximately 30 nations rely upon the current U.S. 
nuclear shield for shared deterrence. How will the security of these 
U.S. allies be impacted by the U.S. downsizing both warheads and 
delivery systems as contained in the new START treaty recently signed 
by the President?
    Dr. Miller. As President Obama stated in Prague last year, we are 
committed to maintaining a safe, secure, and effective nuclear arsenal 
to deter any adversary and guarantee that defense to our allies. 
Analyses conducted during the Nuclear Posture Review determined that 
the future U.S. strategic force planned for the New START Treaty will 
be sufficient to meet U.S. extended deterrence requirements. The 
security of U.S. allies will not be diminished by the reductions in 
U.S. strategic nuclear forces mandated by the New START Treaty. Allies 
have welcomed the outcome of the NPR, as well as the signing of the New 
START Treaty, with many seeing the Treaty as an important step forward 
in global nonproliferation efforts. For example, on behalf of NATO 
Allies, NATO Secretary General Anders Fogh Rasmussen welcomed the 
agreement as an important contribution to arms control, and an 
inspiration for further progress.
    Mr. Bishop. On page 23 of the Nuclear Posture Review Summary, it 
states, ``The DoD will continue the Minuteman III Life Extension 
Program with the aim of keeping the fleet in service to 2030, as 
mandated by Congress. Although a decision on any follow-on ICBM 
development is not needed for several years, studies to inform that 
decision are needed now.''
    The Minuteman III Propulsion Replacement Program (PRP) just 
concluded in calendar year 2009. Last year, as part of the FY 10 
authorization process, the Air Force acknowledged the military 
requirement for a so-called ``warm line'' program to adequately sustain 
the Minuteman III with regard to the solid rocket boosters. For FY 11, 
the Air Force only proposes production of 3 Minuteman III boosters, 
when industry maintains that 6 booster sets are minimally necessary to 
sustain the industrial base. More disturbingly, the Air Force Five Year 
Defense Plan (FYDP) contains $0 funding for Minuteman III Warm Line 
sustainment in FY 13 and beyond.
    At an earlier hearing this year, the Undersecretary of Defense for 
Policy, Ms. Michele Flournoy, assured me that the large scale solid 
rocket motor industrial base issue would be addressed by this 
Administration more fully in the NPR. However, in reviewing the 
document made available to me, I cannot determine that it has been 
addressed at all.
    Please explain what is meant exactly by the phrase ``DoD will 
continue the Minuteman III Life Extension Program.''
    General Chilton. In the NPR, DoD committed to sustaining Minuteman 
III through 2030. Analysis conducted by U.S. Strategic Command in 
coordination with U.S. Air Force indicated Minuteman III is viable and 
sustainable through 2020. Additional sustainment efforts will be needed 
to extend operations to 2030. The Air Force is currently collecting 
data for use in analysis to determine the proper course to sustain our 
ICBM fleet to 2030. Once USAF completes the analysis, DoD will 
determine the best set of options to extend Minuteman III to 2030.
    Mr. Bishop. Does the NPR address what number of Minuteman III 
booster sets are minimally necessary to sustain a viable warm-line 
sustainment program?
    General Chilton. No, however, the NPR does commit to sustaining 
Minuteman through 2030. As you are aware, propulsion replacement 
program was completed in 2009 and a warm-line minimum production 
program was created to help sustain the industrial base while the Air 
Force studied the path forward.
    Mr. Bishop. What specific impacts would termination of NASA's Ares 
1 and Ares 5 rocket motors have on the defense solid rocket motor 
industrial base?
    General Chilton. There are no concrete estimates of the potential 
cost increases associated with the potential termination of Ares 
production. There is the potential that DoD programs could be impacted 
and share a larger portion of recurring costs. We look forward to 
Secretary Carter's AT&L-led task force study on this issue to inform 
the Department's investment strategy to ensure we can meet the nation's 
strategic propulsion needs.
    Mr. Bishop. If NASA's proposal to terminate Ares 1 and Ares 5 is 
approved by Congress, is the DoD confident that the solid rocket motor 
industrial base will survive and be sufficiently robust to allow for 
future ICBM modernization options involving solid rocket motors, and 
what evidence would lead the DoD to having such an assurance?
    General Chilton. The United States is the world's premier 
manufacturer of solid rocket motors. If the industry is required to 
resize, special emphasis needs to be placed on managing risks and 
ensuring adequate investment to exercise the entire design-to-
production life cycle so we are prepared to meet the demands of 
strategic system sustainment and modernization. This is being examined 
closely by Dr. Carter's AT&L-led task force and I defer to the results 
of his study.
    Mr. Bishop. Is retention of a healthy large-scale solid rocket 
motor industrial base of vital strategic importance to the Defense 
Department of the United States?
    General Chilton. The solid rocket motor industrial base is being 
reviewed by AT&L and will result in a full update report to the 
Congress. A viable solid rocket motor industrial base is a critical 
part of the broader industrial base needed to maintain safe, secure, 
and effective strategic force. As is the case with the nuclear weapons 
enterprise, we need to maintain sufficient and affordable capability 
and expertise required to recapitalize our deterrent propulsion needs. 
I am confident Secretary Carter's AT&L-led task force study on this 
issue will inform the Department's investment strategy to ensure we can 
continue to meet the nation's strategic propulsion needs.
    Mr. Bishop. Approximately 30 nations rely upon the current U.S. 
nuclear shield for shared deterrence. How will the security of these 
U.S. allies be impacted by the U.S. downsizing both warheads and 
delivery systems as contained in the new START treaty recently signed 
by the President?
    General Chilton. As part of the development of the U.S. negotiating 
position in the New START negotiations, U.S. Strategic Command 
conducted an analysis of our nuclear forces' capability to meet current 
employment guidance at reduced force levels. The New START treaty will 
allow the United States to deploy a nuclear triad capable of meeting 
that guidance. That guidance was developed with our current extended 
deterrence commitments in mind. Thus, from the perspective of the 
Commander, U.S. Strategic Command the reductions required by the New 
START treaty will not undermine our ability to provide extended 
deterrence.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. OWENS

    Mr. Owens. Former Secretary of State George Shultz, who served from 
1982 to 1989, wrote in the Wall Street Journal that the recent Nuclear 
Posture Review is ``more relevant'' than its predecessors that relied 
on the stockpiling of nuclear weapons alone to deter threats against 
our country. Would you agree that this Nuclear Posture Review better 
addresses the modern-day threats facing America and our allies, and how 
confident are you that it will address those threats ten years from now 
when the next NPR is set for release?
    Secretary Tauscher. I agree completely with Mr. Shultz's 
characterization of the NPR. Our goal in developing our nuclear posture 
was to refocus our strategy on the most pressing threats today--nuclear 
terrorism and proliferation. We cannot address these threats through 
large stockpiles of nuclear weapons. This Administration's NPR has 
adapted our policies to the realities of today's world by placing these 
issues of nuclear terrorism and proliferation at the top of our nuclear 
agenda. In addition, the NPR lays out a strategy for working more 
closely with our allies, friends, and partners--including former 
adversaries--to strengthen international security and stability; 
increasing reliance on non-nuclear capabilities, including missile 
defense, and providing a necessary increase in the funding for the 
Stockpile Stewardship and Management Plan that will ensure that the 
United States retains a safe, secure, and effective nuclear arsenal for 
as long as nuclear weapons exist.
    We are working hard to generate a close, durable relationship with 
our Russian partners to set the stage for even further reductions. We 
are also working with China to develop strong ties and mutual 
understanding that will strengthen international and regional security. 
However, it is likely that the threats of nuclear terrorism and 
proliferation will endure over this timeframe. This NPR is a strategy 
to address these long-term threats, and provides a ``roadmap'' for 
continuity in our nuclear posture that future reviews will be able to 
build upon.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
